   Department of Health and Human Services
                      OFFICE OF
                 INSPECTOR GENERAL

   NOT ALL INTERNAL CONTROLS
  IMPLEMENTED BY THE FEDERAL,
  CALIFORNIA, AND CONNECTICUT
 MARKETPLACES WERE EFFECTIVE IN
    ENSURING THAT INDIVIDUALS
WERE ENROLLED IN QUALIFIED HEALTH
   PLANS ACCORDING TO FEDERAL
          REQUIREMENTS

     Inquiries about this report may be addressed to the Office of Public Affairs at
                              Public.Affairs@oig.hhs.gov.




                                                     Daniel R. Levinson
                                                      Inspector General

                                                          June 2014
                                                        A-09-14-01000
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                       EXECUTIVE SUMMARY

 Not all internal controls implemented by the Federal, California, and Connecticut
 marketplaces were effective in ensuring that individuals were enrolled in qualified health
 plans according to Federal requirements. The deficiencies in internal controls that we
 identified may have limited the marketplaces’ ability to prevent the use of inaccurate or
 fraudulent information when determining eligibility of applicants for enrollment.

WHY WE DID THIS REVIEW

The Patient Protection and Affordable Care Act (ACA) established health insurance exchanges
(commonly referred to as “marketplaces”) to allow individuals and small businesses to shop for
health insurance in all 50 States and the District of Columbia. A marketplace offers individuals
private health insurance plans, known as qualified health plans (QHPs), and enrolls individuals
in those plans. QHPs must meet certain participation standards and cover a core set of benefits.

The Continuing Appropriations Act, 2014, mandated that the Office of Inspector General (OIG)
of the U.S. Department of Health and Human Services (HHS) submit to Congress no later than
July 1, 2014, a report regarding the effectiveness of the procedures and safeguards provided
under the ACA for preventing submission of inaccurate or fraudulent information by applicants
for enrollment in QHPs offered through the individual marketplace.

In response to the mandate, we reviewed internal controls that selected marketplaces
implemented to comply with the procedures and safeguards required by the ACA for
determining the eligibility of applicants for enrollment in QHPs. Internal controls are intended
to provide reasonable assurance that an organization’s objectives are being achieved, including
effectiveness and efficiency of operations and compliance with applicable laws and regulations.
We performed an internal control review because it enabled us to evaluate the effectiveness and
efficiency of the selected marketplaces’ operations and the marketplaces’ compliance with
applicable Federal requirements.

Because we reviewed the marketplaces’ internal controls in place during the first 3 months of the
open enrollment period for applicants enrolling in QHPs (October to December 2013), our
review provides an early snapshot of the effectiveness of these controls. A companion study
(Marketplaces Faced Early Challenges Resolving Inconsistencies with Applicant Data, report
number OEI-01-14-00180) focuses on the procedures used by marketplaces nationwide for
resolving inconsistencies between self-attested applicant information and data sources used for
verification. These are the first of several OIG reviews that will examine various aspects of
marketplace operations, including additional eligibility verifications, payment accuracy,
contractor oversight, and data security.

We selected three marketplaces for this review: (1) the federally facilitated marketplace (the
Federal marketplace), which operated in 36 States as of October 1, 2013; (2) Covered California
(the California marketplace); and (3) Access Health CT (the Connecticut marketplace). We
selected these marketplaces on the basis of their type (federally operated or State-operated),
coverage of States in different parts of the country, and size of the uninsured population.


Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)             i
OBJECTIVE

The objective of this review was to determine whether internal controls implemented by the
Federal, California, and Connecticut marketplaces were effective in ensuring that individuals
were enrolled in QHPs according to Federal requirements.

BACKGROUND

Health Insurance Marketplaces

A marketplace is designed to serve as a one-stop shop at which individuals get information about
their health insurance options; are evaluated for eligibility for a QHP and, when applicable,
eligibility for financial assistance through insurance affordability programs; and enroll in the
QHP of their choice. For States that elected not to establish and operate a State-based
marketplace (State marketplace), the ACA required the Federal Government to operate a
marketplace (i.e., the Federal marketplace) in the State. A State was also able to establish a
State-partnership marketplace, in which HHS and the State share responsibilities for core
functions.

As of October 1, 2013, 36 States, including 7 State-partnership marketplaces, used the Federal
marketplace, and 15 States had established State marketplaces. California and Connecticut are
2 of the 15 States that had established State marketplaces. The Centers for Medicare & Medicaid
Services (CMS) operates the Federal marketplace and works with States to establish State and
State-partnership marketplaces, including overseeing their operations.

Qualified Health Plans and Insurance Affordability Programs

QHPs are private health insurance plans that each marketplace recognizes and certifies as
meeting certain participation standards and covering a core set of benefits. To lower individuals’
insurance premiums or out-of-pocket costs for QHPs, the ACA provides for two types of
insurance affordability programs: the premium tax credit and cost-sharing reductions. The
premium tax credit reduces the cost of a plan’s premium and is available at tax filing time or in
advance. When paid in advance, the credit is referred to as the “advance premium tax credit.”
Cost-sharing reductions help individuals with out-of-pocket costs, such as deductibles,
coinsurance, and copayments. Depending on an individual’s income, he or she may be eligible
for either or both types of insurance affordability programs.

To be eligible to enroll in a QHP, an individual must be a U.S. citizen, a U.S. national, or
lawfully present in the United States; not be incarcerated; and meet applicable residency
standards. To be eligible for an advance premium tax credit and cost-sharing reductions, the
individual must meet additional requirements, such as annual household income and family size
requirements.




Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)           ii
Application and Enrollment Process for Qualified Health Plans and
Insurance Affordability Programs

To enroll in a QHP, an applicant must complete an application and meet eligibility requirements
defined by the ACA. An applicant can enroll in a QHP through the marketplace Web site
(online), which is either HealthCare.gov (the Federal marketplace Web site) or the State
marketplace Web site, depending on the applicant’s State of residence; by phone; by mail; in
person; or directly with a broker or agent of a health insurance company. For online and phone
applications, the marketplace verifies the applicant’s identity through an identity-proofing
process. For paper applications, the marketplace requires the applicant’s signature before the
marketplace processes the application. When an applicant completes any type of application, the
applicant attests that answers to all questions are true and is subject to the penalty of perjury.

After reviewing the applicant’s information, the marketplace determines whether the applicant is
eligible for a QHP and, when applicable, eligible for insurance affordability programs. To verify
the information submitted by the applicant, the marketplace uses multiple electronic data
sources, including sources available through the Federal Data Services Hub (Data Hub). These
data sources include HHS, the Social Security Administration (SSA), the U.S. Department of
Homeland Security (DHS), and the Internal Revenue Service (IRS). If the marketplace
determines that the applicant is eligible, the applicant selects a QHP, and the marketplace
transmits the enrollment information to the insurance company, i.e., the QHP issuer.

Generally, when a marketplace cannot verify information submitted by the applicant or the
information is inconsistent with information available through the Data Hub or other sources, the
marketplace must attempt to resolve the inconsistency. If the marketplace is unable to resolve an
inconsistency through reasonable efforts, it must generally provide the applicant 90 days to
submit satisfactory documentation to resolve the inconsistency (referred to as “the inconsistency
period”). The marketplace may extend the inconsistency period if the applicant demonstrates
that a good-faith effort has been made to submit required documentation. During the
inconsistency period, the applicant may choose to enroll in a QHP and, when applicable, may
choose to receive advance premium tax credits and cost-sharing reductions. After the
inconsistency period, if the marketplace is unable to resolve the inconsistency, it determines the
applicant’s eligibility on the basis of available data sources and, in certain circumstances, the
applicant’s attestation.

HOW WE CONDUCTED THIS REVIEW

We reviewed the internal controls that were in place at the Federal, California, and Connecticut
marketplaces from October to December 2013. We limited our review to those internal controls
related to (1) verifying identity of applicants, (2) determining applicants’ eligibility for
enrollment in QHPs and eligibility for insurance affordability programs, and (3) maintaining and
updating eligibility and enrollment data. These internal controls at each marketplace were not
necessarily the same.




Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)          iii
To determine the effectiveness of the internal controls at each marketplace, we:

       •   tested controls by reviewing a sample of 45 applicants randomly selected at each
           marketplace from all applicants who were determined eligible to enroll in QHPs with
           coverage effective January 1, 2014, 1 and

       •   performed other audit procedures, which included interviews with marketplace
           management, staff, and contractors; observation of staff performing tasks related to
           eligibility determinations; and reviews of supporting documentation and enrollment
           records.

Our attribute sampling approach is commonly used to test the effectiveness of internal controls
for compliance with laws, regulations, and policies. According to the Government
Accountability Office and President’s Council on Integrity and Efficiency’s 2 Financial Audit
Manual (July 2008), section 450, auditors may use a randomly selected sample of 45 items to
perform a compliance review. If all sample items are determined to be in compliance with
requirements, a conclusion that the controls are effective can be made. If one or more sample
items are determined not to be in compliance with requirements, a conclusion that the controls
are ineffective can be made. We tested the controls at each marketplace separately. Our
sampling methodology was limited to forming an opinion about whether the internal controls at
each marketplace were effective and was not designed to estimate the percentage of applicants
for whom each marketplace did not perform the required eligibility verifications.

For the 45 sample applicants for each marketplace, we reviewed supporting documentation to
evaluate whether the marketplace determined eligibility in accordance with Federal
requirements. During our fieldwork, questions arose concerning OIG’s access under the Internal
Revenue Code to Federal taxpayer information that IRS provides to marketplaces. We sought
authorization from IRS to access that information. Because the request was still pending when
we had completed our data collection, we did not review supporting documentation for certain
eligibility requirements, such as annual household income and family size, for the purpose of this
report. 3 As a result, we could not evaluate whether each marketplace determined the 45 sample
applicants’ eligibility for advance premium tax credits and cost-sharing reductions according to
Federal requirements. 4
1
 According to the enrollment data provided by the three marketplaces for all applicants who were determined
eligible to enroll in QHPs with coverage effective January 1, 2014, the Federal marketplace had 1,112,411
applicants, the California marketplace had 453,401 applicants, and the Connecticut marketplace had 34,095
applicants.
2
 The President’s Council on Integrity and Efficiency is now called the Council of the Inspectors General on
Integrity and Efficiency (Inspector General Act § 11).
3
    OIG plans to conduct additional audit work in this area.
4
  We were able to evaluate the Connecticut marketplace’s specific internal controls related to determining
applicants’ eligibility for advance premium tax credits and cost-sharing reductions according to Federal
requirements by performing other audit procedures. The marketplace provided us with additional data that enabled
us to evaluate the controls. The additional data did not contain Federal taxpayer information.



Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)                         iv
Further, we did not determine whether information submitted by the 45 sample applicants at each
marketplace was inaccurate or fraudulent because we could not independently verify the
accuracy of data stored at other Federal agencies, e.g., IRS and SSA. Instead, we focused our
review on determining the effectiveness of internal controls for processing that data and
addressing inconsistencies in eligibility data when identified by the marketplace.

Because the open enrollment period for applicants to enroll in QHPs ended after
December 31, 2013, marketplaces may have received new information, which could have
changed applicants’ eligibility for enrollment in QHPs and, when applicable, eligibility for
insurance affordability programs. We did not review the marketplaces’ redeterminations of
applicants’ eligibility that resulted from verifications of information provided by applicants after
December 31, 2013.

Our review of internal controls, which included reviewing 45 sample applicants and performing
other audit procedures, would not necessarily have detected all internal control deficiencies
because internal controls provide only reasonable assurance that each marketplace complied with
Federal requirements.

WHAT WE FOUND

Not all internal controls implemented by the Federal, California, and Connecticut marketplaces
were effective in ensuring that individuals were enrolled in QHPs according to Federal
requirements. The deficiencies in internal controls that we identified may have limited the
marketplaces’ ability to prevent the use of inaccurate or fraudulent information when
determining eligibility of applicants for enrollment in QHPs.

On the basis of our review of 45 sample applicants at each marketplace, we determined that
certain controls were effective, e.g., verification of applicants’ incarceration status at all
3 marketplaces. However, the internal controls were not effective for:

    •    validating Social Security numbers (one sample applicant) at the Federal marketplace,

    •    verifying citizenship (seven sample applicants) and lawful presence (one sample
         applicant) at the California marketplace, and

    •    performing identity proofing of phone applicants (one sample applicant) and verifying
         minimum essential coverage through non-employer-sponsored insurance (seven sample
         applicants) at the Connecticut marketplace. 5

On the basis of performing other audit procedures, such as interviews with marketplace officials
and reviews of supporting documentation, we determined that other controls were not effective.
For example, the Federal and California marketplaces did not always resolve inconsistencies in

5
  Connecticut marketplace officials stated that the marketplace planned to correct a system defect that prevented the
marketplace from storing verification data for minimum essential coverage through non-employer-sponsored
insurance for the seven applicants.



Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)                                  v
eligibility data, and the Connecticut marketplace did not always properly determine eligibility for
insurance affordability programs.

The presence of an internal control deficiency does not necessarily mean that a marketplace
improperly enrolled an applicant in a QHP or improperly determined eligibility for insurance
affordability programs. Other mechanisms exist that may remedy the internal control deficiency,
such as the resolution process during the inconsistency period. For example, if a marketplace did
not have a control in place to verify an applicant’s citizenship through SSA as required, the
marketplace may still have been able to verify citizenship with satisfactory documentation
provided by the applicant during the inconsistency period.

The table on the following page shows the deficiencies in internal controls identified at each
marketplace, through both testing of controls by reviewing 45 sample applicants and performing
other audit procedures.




Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)           vi
         Table: Deficiencies in Internal Controls Identified at the Three Marketplaces by
             Reviewing Sample Applicants and Performing Other Audit Procedures
                                    (October to December 2013)

                                                                 Federal     California Connecticut
                  Deficiencies Identified
                                                                Marketplace Marketplace Marketplace
Verifying Identity of Applicants and
Entering Application Information
Identity proofing of applicants was not always
                                                                                                             X
performed
Information from paper applications was not
                                                                                          X
always entered correctly into enrollment system
Determining Eligibility of Applicants
Social Security numbers were not always
validated through the Social Security                                  X
Administration
Citizenship was not always verified through the
                                                                                          X
Department of Homeland Security
Lawful presence was not always verified
                                                                                          X
through the Department of Homeland Security
Eligibility for insurance affordability programs
                                                                                                             X
was not always determined properly
Inconsistencies in eligibility data were not
                                                                       X6                 X
always resolved
Maintaining and Updating Eligibility and
Enrollment Data
Eligibility data were not always properly
                                                                                          X                  X
maintained
System functionality to allow enrollees to
update enrollment information had not been                             X
developed
                                                        NOTES
    •   The absence of an “X” for a deficiency indicates that, on the basis of our review, nothing came to our
        attention to indicate that the marketplace had this deficiency.

    •   Although we identified deficiencies at each marketplace, the magnitude of the deficiencies varied. For
        example, the California marketplace did not verify citizenship through DHS for seven sample applicants but
        did not verify lawful presence through DHS for only one sample applicant.




6
 This deficiency was related to applicants for whom inconsistencies could not be resolved by the Federal
marketplace for certain eligibility requirements as of February 2014.



Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)                               vii
These deficiencies occurred because (1) the marketplaces did not have procedures or did not
follow existing procedures to ensure that applicants were enrolled in QHPs according to Federal
requirements or (2) the marketplaces’ eligibility or enrollment systems had defects or lacked
functionality. For example, the Federal marketplace’s system functionality to resolve
inconsistencies in eligibility data had not been fully developed.

In addition to deficiencies that we noted in our “Findings” section, we identified issues that may
be of interest to stakeholders. The section “Other Issues Noted at the Three Marketplaces” in the
body of the report provides information on these issues.

WHAT WE RECOMMEND

To address the specific deficiencies that we identified, we recommend that CMS, Covered
California, and Access Health CT take action to improve internal controls related to (1) verifying
identity of applicants and entering application information, (2) determining applicants’ eligibility
for enrollment in QHPs and eligibility for insurance affordability programs, and (3) maintaining
and updating eligibility and enrollment data.

We also recommend that CMS work with Covered California and Access Health CT to
implement our recommendations addressing deficiencies identified at the California and
Connecticut marketplaces. The “Recommendations” section in the body of the report lists our
specific recommendations for each of the three marketplaces.

MARKETPLACES’ COMMENTS AND OUR RESPONSES

CMS, Covered California, and Access Health CT provided written comments on our draft report:

    •   CMS concurred with all of our recommendations and provided information on actions
        that it had taken or planned to take to address our recommendations. However, it stated
        that it did not believe that the recommendations to perform identity proofing of all
        applicants and fully develop system functionality to allow enrollees to report life changes
        needed to be included in the report. After reviewing additional supporting documentation
        that CMS provided after issuance of our draft report, we removed our recommendation
        and the related finding on identify proofing of applicants.

    •   Covered California agreed with our recommendation that it ensure that documentation is
        maintained to support the resolution of inconsistencies and provided information on
        actions that it had taken or planned to take to address our remaining recommendations.
        Covered California did not concur with our findings that identity proofing of applicants
        was not always performed and citizenship was not always verified through DHS. In
        addition, it stated that it could not concur or disagree with our finding that lawful
        presence was not always verified through DHS. After reviewing supporting
        documentation that Covered California provided after issuance of our draft report, we
        removed our finding and the related recommendation on identity proofing of applicants;
        however, we included the issue in the section “Other Issues Noted at the Three
        Marketplaces” in the body of the report.



Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)           viii
    •   Access Health CT concurred with three of our recommendations, but it did not concur
        with our recommendation to ensure that identity proofing of phone applicants is
        performed and with our finding that it did not verify applicants’ citizenship through DHS.
        After reviewing additional supporting documentation that Access Health CT provided
        after issuance of our draft report, we removed our finding and the related
        recommendation on citizenship verification.

CMS, Covered California, and Access Health CT also provided comments on the other issues
noted at the marketplaces. We summarized these comments at the end of each issue in the body
of the report. CMS’s, Covered California’s, and Access Heath CT’s comments are included in
their entirety as appendixes to this report. CMS provided technical comments on our draft
report, which we addressed as appropriate.




Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)          ix
                                                          TABLE OF CONTENTS

INTRODUCTION ...........................................................................................................................1

           Why We Did This Review ...................................................................................................1

           Objective ..............................................................................................................................2

           Background ..........................................................................................................................2
                  Patient Protection and Affordable Care Act ............................................................2
                  Health Insurance Marketplaces ................................................................................2
                  Qualified Health Plans and Insurance Affordability Programs ...............................3
           Application and Enrollment Process for Qualified Health Plans and
            Insurance Affordability Programs.....................................................................................6
           Administration of the Federal, California, and Connecticut Marketplaces .........................9

           How We Conducted This Review......................................................................................10

FINDINGS .....................................................................................................................................12

           Deficiencies Related to Verifying Identity of Applicants and Entering
            Application Information..................................................................................................14
                  Identity Proofing of Applicants Was Not Always Performed by the
                    Connecticut Marketplace ....................................................................................14
                  Information From Paper Applications Was Not Always Entered Correctly
                    by the California Marketplace Into Its Enrollment System ................................15

           Deficiencies Related to Determining Eligibility of Applicants .........................................16
                  Social Security Numbers Were Not Always Validated Through the
                    Social Security Administration by the Federal Marketplace ..............................16
                  Citizenship Was Not Always Verified Through the Department of
                    Homeland Security by the California Marketplace ............................................17
                  Lawful Presence Was Not Always Verified Through the Department
                    of Homeland Security by the California Marketplace ........................................18
                  Eligibility for Insurance Affordability Programs Was Not Always
                    Determined Properly by the Connecticut Marketplace .......................................18
                  Inconsistencies in Eligibility Data Were Not Always Resolved by
                    the Federal and California Marketplaces ............................................................19

           Deficiencies Related to Maintaining and Updating Eligibility and
            Enrollment Data ..............................................................................................................22
                  Eligibility Data Were Not Always Properly Maintained by the
                    California and Connecticut Marketplaces ...........................................................22
                  System Functionality To Allow Enrollees To Update Enrollment
                    Information Had Not Been Developed by the Federal Marketplace ..................23




Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)                                                            x
CONCLUSION ..............................................................................................................................24

RECOMMENDATIONS ...............................................................................................................25

          Recommendations to CMS ................................................................................................25

          Recommendations to Covered California ..........................................................................25

          Recommendations to Access Health CT............................................................................26

MARKETPLACES’ COMMENTS AND
 OFFICE OF INSPECTOR GENERAL RESPONSES ...............................................................26

          CMS Comments and Office of Inspector General Response.............................................27

          Covered California Comments and Office of Inspector General Response ......................27

          Access Health CT Comments and Office of Inspector General Response ........................29

OTHER ISSUES NOTED AT THE THREE MARKETPLACES................................................30

          Identity Proofing of Applicants Was Performed by the California Marketplace
            Only by Accepting Applicants’ Electronic Signatures or Verbal Attestations ...............30

          Residency Was Verified by the Federal, California, and Connecticut
           Marketplaces Only by Accepting Applicants’ Attestation of Residency .......................31

          Family Size Was Verified by the Federal, California, and Connecticut
           Marketplaces Only by Accepting Applicants’ Attestation of Family Size .....................32

          Enrollment Records Were Not Always Promptly Sent to Qualified Health Plan
           Issuers by the Connecticut Marketplace .........................................................................32

          Appropriate Advance Premium Tax Credits Were Not Always Reported to
           Qualified Health Plan Issuers by the Connecticut Marketplace .....................................33

          Documentation Was Not Provided by the Federal Marketplace To Support That
           Required Monthly Reconciliations for Qualified Health Plans Were Performed...........33

APPENDIXES ...................................................................................................................................

          A: Marketplace Type Used in Each State as of October 1, 2013 .....................................35

          B: Federal Eligibility Requirements for Qualified Health Plans and
               Insurance Affordability Programs.............................................................................38




Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)                                                     xi
        C: Seven Steps in the Application and Enrollment Process for a
             Qualified Health Plan................................................................................................48

        D: Overview of Internal Controls .....................................................................................50

        E: Audit Scope and Methodology .....................................................................................51

        F: Results of Testing of Controls for 45 Sample Applicants at
             Each Marketplace for the Required Eligibility Verifications ...................................55

        G: CMS Comments ...........................................................................................................56

        H: Covered California Comments ....................................................................................62

         I: Access Health CT Comments ......................................................................................70




Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)                                            xii
                                                INTRODUCTION

WHY WE DID THIS REVIEW

The Patient Protection and Affordable Care Act (ACA) 1 established health insurance exchanges
(commonly referred to as “marketplaces”) to allow individuals and small businesses to shop for
health insurance in all 50 States and the District of Columbia. 2 A marketplace offers individuals
private health insurance plans, known as qualified health plans (QHPs), and enrolls individuals
in those plans. QHPs must meet certain participation standards and cover a core set of benefits.

The Continuing Appropriations Act, 2014, mandated that the Office of Inspector General (OIG)
of the U.S. Department of Health and Human Services (HHS) submit to Congress no later than
July 1, 2014, a report regarding the effectiveness of the procedures and safeguards provided
under the ACA for preventing submission of inaccurate or fraudulent information by applicants
for enrollment in QHPs offered through the individual marketplace. 3

In response to the mandate, we reviewed internal controls that selected marketplaces
implemented to comply with the procedures and safeguards required by the ACA for
determining the eligibility of applicants for enrollment in QHPs. Internal controls are intended
to provide reasonable assurance that an organization’s objectives are being achieved, including
effectiveness and efficiency of operations and compliance with applicable laws and regulations.
We performed an internal control review because it enabled us to evaluate the effectiveness and
efficiency of the selected marketplaces’ operations and the marketplaces’ compliance with
applicable Federal requirements.

Because we reviewed the marketplaces’ internal controls in place during the first 3 months of the
open enrollment period for applicants enrolling in QHPs (October to December 2013), our
review provides an early snapshot of the effectiveness of these controls. A companion study
(Marketplaces Faced Early Challenges Resolving Inconsistencies with Applicant Data, report
number OEI-01-14-00180) focuses on the procedures used by marketplaces nationwide for
resolving inconsistencies between self-attested applicant information and data sources used for
verification. These are the first of several OIG reviews that will examine various aspects of
marketplace operations, including additional eligibility verifications, payment accuracy,
contractor oversight, and data security.

We selected three marketplaces for this review: (1) the federally facilitated marketplace (the
Federal marketplace), which operated in 36 States as of October 1, 2013; (2) Covered California
(the California marketplace); and (3) Access Health CT (the Connecticut marketplace). We

1
 P.L. No. 111-148 (Mar. 23, 2010), as amended by the Health Care and Education Reconciliation Act of 2010,
P.L. No. 111-152 (Mar. 30, 2010), collectively referred to as “ACA.”
2
  Each State can have an individual marketplace and a Small Business Health Options Program (SHOP)
marketplace, which enables small businesses to access health coverage for their employees. This report does not
include a review of SHOP marketplaces.
3
    P.L. No. 113-46, section 1001(c) (Oct. 17, 2013).



Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)                            1
selected these marketplaces on the basis of their type (federally operated or State-operated),
coverage of States in different parts of the country, and size of the uninsured population.

OBJECTIVE

The objective of this review was to determine whether internal controls implemented by the
Federal, California, and Connecticut marketplaces were effective in ensuring that individuals
were enrolled in QHPs according to Federal requirements.

BACKGROUND

Patient Protection and Affordable Care Act

A major goal of the ACA is to provide more Americans with access to affordable health care by
creating new health insurance marketplaces; enforcing rights and protections for those
individuals who apply for insurance (including preventing insurance companies, e.g., QHP
issuers, from denying coverage because of preexisting conditions); and providing financial
assistance through insurance affordability programs for people who cannot afford insurance.

Health Insurance Marketplaces

A marketplace is designed to serve as a one-stop shop at which individuals get information about
their health insurance options; are evaluated for eligibility for a QHP and, when applicable,
eligibility for insurance affordability programs; and enroll in the QHP of their choice. 4 For
States that elected not to establish and operate a State-based marketplace (State marketplace), the
ACA required the Federal Government to operate a marketplace in the State. 5

The three types of marketplaces operational as of January 1, 2014, were the Federal, State, and
State-partnership marketplaces:

      •   Federal marketplace: HHS operates the Federal marketplace in States that did not
          establish their own marketplaces. Individuals in these States enroll in QHPs through the
          Federal marketplace.

      •   State marketplace: A State may establish and operate its own marketplace. The State
          marketplace may use Federal services (e.g., the system that provides Federal data) to
          assist with certain functions, such as eligibility determinations for insurance affordability
          programs.



4
  An individual is considered to be enrolled in a QHP when he or she has been determined eligible and has paid the
first monthly insurance premium. An individual may also obtain information from the marketplace about Medicaid
and the Children’s Health Insurance Program (CHIP) (ACA § 1413 and 45 CFR § 155.405).
5
    ACA §§ 1311(b) and 1321(c).



Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)                               2
      •    State-partnership marketplace: A State may establish a State-partnership marketplace,
           in which HHS and the State share responsibilities for core functions. For example, HHS
           may perform certain functions, such as eligibility determinations, and the State may
           perform other functions, such as insurance plan management and consumer outreach. A
           key distinction between a State-partnership and State marketplace is that the former uses
           the Federal marketplace Web site to enroll individuals in QHPs and the latter has its own
           Web site for that purpose.

As of October 1, 2013, 36 States, including 7 State-partnership marketplaces, used the Federal
marketplace, and 15 States had established State marketplaces. Appendix A provides a map that
shows the type of marketplace in each State as of October 1, 2013, as well as a list of the States
and their marketplace types.

Qualified Health Plans and Insurance Affordability Programs

Qualified Health Plans

QHPs are private health insurance plans that each marketplace recognizes and certifies as
meeting certain participation standards. QHPs are required to cover a core set of benefits
(known as essential health benefits). 6 QHPs are classified into “metal” levels: bronze, silver,
gold, and platinum. These levels are determined by the percentage that each QHP expects to
pay, on average, for the total allowable costs of providing essential health benefits. 7

Insurance Affordability Programs

The ACA provides for two types of insurance affordability programs to lower individuals’
insurance premiums or out-of-pocket costs for QHPs: 8

      •    Premium tax credit: The premium tax credit reduces the cost of a plan’s premium and
           is available at tax filing time or in advance. Generally, the premium tax credit is
           available on a sliding scale to individuals or families with incomes from 100 percent
           through 400 percent of the Federal poverty level. When paid in advance, the credit is
           referred to as the “advance premium tax credit.” 9 The Federal Government pays the
           advance premium tax credit amount monthly to the QHP issuer on behalf of the taxpayer

6
 ACA § 1301(a) and 45 CFR part 156, subpart B. Dental coverage for children must be available as part of a health
plan or as a standalone plan. QHPs are not required to offer adult dental coverage.
7
  An individual who is under 30 years old or qualifies for a hardship exemption may also choose a catastrophic plan,
which requires the individual to pay all of his or her medical expenses until the deductible amount is met (ACA
§ 1302(e) and 45 CFR §§ 156.155 and 156.440). Hardship includes specific circumstances that prevent an
individual from obtaining coverage under a QHP, such as the expense of purchasing a QHP causing serious
deprivation of food, shelter, clothing, or other necessities (45 CFR § 155.605(g)).
8
    We did not review other types of insurance affordability programs, such as Medicaid and CHIP.
9
    ACA § 1401 and 45 CFR § 155.20 (definition of “advance payment of the premium tax credit”).



Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)                             3
          to offset a portion of the cost of the premium of any metal-level plan. For example, if an
          individual who selects an insurance plan with a $500 monthly insurance premium
          qualifies for a $400 monthly advance premium tax credit, the individual pays only $100
          to the QHP issuer. The Federal Government pays the remaining $400 to the QHP issuer.
          Starting in January 2015, taxpayers must include on their tax returns the amount of any
          advance premium tax credit made on their behalf. The Internal Revenue Service (IRS)
          will reconcile the advance premium tax credit payments with the maximum allowable
          amount of the credit. 10

      •   Cost-sharing reductions: Cost-sharing reductions help qualifying individuals with out-
          of-pocket costs, such as deductibles, coinsurance, and copayments. 11 For example, an
          individual who visits a physician may be responsible for a $30 copayment. If the
          individual qualifies for a cost-sharing reduction of $20 for the copayment, the individual
          pays only $10. An individual must select a silver-level QHP to qualify for cost-sharing
          reductions. 12 Generally, cost-sharing reductions are available to an individual or family
          with income from 100 through 250 percent of the Federal poverty level. The Federal
          Government makes monthly payments to QHP issuers to cover estimated costs of cost-
          sharing reductions provided to individuals. At the end of the year, HHS reconciles with
          the QHP issuers the total amount of estimated payments of cost-sharing reductions made
          to QHP issuers with the actual costs of cost-sharing reductions incurred.

An individual may be eligible for either or both types of insurance affordability programs if he or
she meets specified Federal requirements.

Federal Eligibility Requirements for Qualified Health Plans and
Insurance Affordability Programs

To be eligible to enroll in a QHP, an individual must:

      •   be a U.S. citizen, a U.S. national, or lawfully present in the United States; 13


10
  The maximum allowable amount of the credit is the total amount of the premium tax credit for which an
individual may be eligible in a benefit year (26 U.S.C. §§ 36B(a) and (b)).
11
     ACA § 1402 and 45 CFR § 155.20.
12
  Indians may receive cost-sharing reductions without selecting a silver-level plan if their income does not exceed
300 percent of the Federal poverty level (ACA §§ 1402 and 2901 and 45 CFR § 155.350). “Indian” is defined as an
individual who meets the definition in section 4(d) of the Indian Self-Determination and Education Assistance Act
(ISDEAA), P.L. No. 93-638. Under section 4(d), “Indian” is a person who is a member of an Indian tribe. The
ISDEAA defines “Indian tribes” as “any Indian tribe, Band, nation, or other organized group or community,
including any Alaska Native village or regional or village corporation as defined in or established pursuant to the
Alaska Native Claims Settlement Act, which is recognized as eligible for the special programs and services provided
by the United States to Indians because of their status as Indians” (25 U.S.C. § 450b(e)).
13
  An individual may be considered “lawfully present” if his or her immigration status meets any of the categories
defined in 45 CFR § 152.2.



Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)                              4
       •   not be incarcerated; and 14

       •   meet applicable residency standards. 15

To be eligible for insurance affordability programs, an individual must meet additional
requirements for annual household income and family size. 16 Additionally, an individual is not
eligible for these programs if he or she is eligible for minimum essential coverage that is not
offered through a marketplace. 17

Marketplaces must verify up to 11 requirements, as appropriate, when determining eligibility for
QHPs and insurance affordability programs:

       1. Social Security number,

       2. citizenship,

       3. status as a national, 18

       4. lawful presence (e.g., if an individual is not a citizen),

       5. incarceration status (e.g., whether an individual is in prison),

       6. residency,

       7. whether an individual is an Indian,

       8. family size,

       9. annual household income,



14
  An individual must not be incarcerated, other than incarceration pending the disposition of charges (45 CFR
§ 155.305(a)(2)).
15
     ACA §§ 1312(f) and 1411(b) and 45 CFR § 155.305(a)(3).
16
     ACA §§ 1401 and 1402 and 45 CFR §§ 155.305(f) and (g).
17
  45 CFR § 155.20 and 26 U.S.C. § 5000A(f). Minimum essential coverage consists of employer-sponsored and
non-employer-sponsored coverage. For the purpose of this report, we use the term “non-employer-sponsored
coverage” to include government programs (e.g., Medicare and Medicaid), grandfathered plans, and other plans
(e.g., State and tribal). Special circumstances apply for individuals who are eligible for TRICARE and U.S.
Department of Veterans Affairs benefits. See 77 Fed. Reg. 30377, 30379 (May 23, 2012).
18
   The term “national” may refer to a person who, though not a citizen of the United States, owes permanent
allegiance to the United States. All U.S. citizens are U.S. nationals, but only a relatively small number of people
acquire U.S. nationality without becoming U.S. citizens (8 U.S.C. § 1101(a)).



Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)                                5
       10. whether the individual is eligible for minimum essential coverage through employer-
           sponsored insurance, and

       11. whether the individual is eligible for minimum essential coverage through non-employer-
           sponsored insurance. 19

Appendix B has details on the Federal eligibility requirements for QHPs and insurance
affordability programs.

Application and Enrollment Process for Qualified Health Plans and Insurance
Affordability Programs

To enroll in a QHP, an applicant 20 must complete an application and meet eligibility
requirements defined by the ACA. An applicant can enroll in a QHP through the marketplace
Web site (online), which is either HealthCare.gov (the Federal marketplace Web site) or the State
marketplace Web site, depending on the applicant’s State of residence; by phone; by mail; in
person; or directly with a QHP issuer’s broker or agent. For online and phone applications, the
marketplace verifies the applicant’s identity through an identity-proofing process. For paper
applications, the marketplace requires the applicant’s signature before the marketplace processes
the application. 21 When an applicant completes any type of application, the applicant attests that
answers to all questions are true and is subject to the penalty of perjury. 22

After reviewing the applicant’s information, the marketplace determines whether the applicant is
eligible for a QHP and, when applicable, eligible for insurance affordability programs. 23 To
verify the information submitted by the applicant, the marketplace uses multiple electronic data
sources, including sources available through the Federal Data Services Hub (Data Hub). 24 The
Data Hub is a single conduit for marketplaces to send and receive electronic data from multiple
Federal agencies; it does not store data. Federal agencies connected to the Data Hub include
HHS, the Social Security Administration (SSA), the U.S. Department of Homeland Security

19
     45 CFR §§ 155.315 and 155.320.
20
  For the purpose of this report, the term “applicant” refers to both the person who completes the application
(application filer) and the person who seeks coverage in a QHP. The application filer may or may not be an
applicant seeking coverage in a QHP (45 CFR § 155.20). For example, an application filer may be a parent seeking
coverage for a child, who is the applicant.
21
  Centers for Medicare & Medicaid Services (CMS), Guidance Regarding Identity Proofing for the Marketplace,
Medicaid, and CHIP, and the Disclosure of Certain Data Obtained through the Data Services Hub, dated
June 11, 2013 (Identity Proofing Guidance).
22
  Any person who fails to provide correct information may be subject to a civil monetary penalty
(ACA § 1411(h)).
23
     An applicant can apply for enrollment in a QHP without applying for insurance affordability programs.
24
  State marketplaces can access additional sources of data to verify applicant information. For example, the
California marketplace uses the California Franchise Tax Board to verify household income.



Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)                         6
(DHS), and IRS (ACA § 1411(c)). If the marketplace determines that the applicant is eligible,
the applicant selects a QHP, and the marketplace transmits the enrollment information to the
QHP issuer.

Generally, when a marketplace cannot verify information submitted by the applicant or the
information is inconsistent with information available through the Data Hub or other sources, the
marketplace must attempt to resolve the inconsistencies. For these purposes, applicant
information is considered to be consistent with information from other sources if they are
reasonably compatible with each other. 25 Information is considered reasonably compatible if
any difference between the applicant information and other sources does not affect the eligibility
of the applicant. Inconsistencies do not necessarily indicate that an applicant provided inaccurate
information or is enrolled in a QHP or receiving financial assistance through insurance
affordability programs inappropriately.

The marketplace must first make a reasonable effort to identify and address the causes of an
inconsistency by contacting the applicant to confirm the accuracy of the information on the
application. If the marketplace is unable to resolve the inconsistency through reasonable efforts,
it must generally provide the applicant 90 days to submit satisfactory documentation to resolve
the inconsistency (referred to as “the inconsistency period”). 26 The marketplace may extend the
inconsistency period if the applicant demonstrates that a good-faith effort has been made to
submit required documentation. 27 Additionally, for enrollments occurring during 2014, the
Secretary of HHS has the authority to extend the inconsistency period for all marketplaces.
However, this extension does not apply to applicants with inconsistencies pertaining to
citizenship and immigration status. 28

During the inconsistency period, the applicant may choose to enroll in a QHP and, when
applicable, may choose to receive the advance premium tax credit and cost-sharing reductions. 29
An applicant may choose to enroll during the period only if the applicant is otherwise eligible to
enroll in a QHP and may receive the advance premium tax credit and cost-sharing reductions if
(1) the applicant meets other eligibility requirements and (2) the tax filer 30 attests that the
advance premium tax credit is subject to reconciliation. 31 After the inconsistency period, if the

25
  45 CFR § 155.300(d). For purposes of determining reasonable compatibility, “other sources” include information
obtained through electronic data sources, other information provided by the applicant, or other information in the
records of the marketplace.
26
     See generally ACA § 1411(e)(4) and 45 CFR § 155.315(f).
27
     45 CFR § 155.315(f)(3).
28
     ACA § 1411(e)(4).
29
     45 CFR § 155.315(f)(4).
30
  Generally, a “tax filer” is an individual or a married couple who indicate that they are filing an income tax return
for the benefit year (45 CFR § 155.300(a)).
31
     45 CFR § 155.315(f)(4).



Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)                                   7
marketplace is unable to resolve the inconsistency, it determines the applicant’s eligibility on the
basis of available data sources and, in certain circumstances, the applicant’s attestation. 32 For
more information on how marketplaces may resolve inconsistencies, see Chart 1: Steps and
Outcomes for Resolving Inconsistencies in the companion study report Marketplaces Faced
Early Challenges Resolving Inconsistencies with Applicant Data, (report number
OEI-01-14-00180).

Generally, an applicant must pay the first month’s QHP premium for the insurance coverage to
be effective. If a change to the enrollee’s 33 coverage occurs after the coverage becomes
effective, the marketplace and the QHP issuer must reconcile the revised enrollment records
(45 CFR § 155.400). Figure 1 provides a summary of the steps in the application and enrollment
process, and Appendix C provides a detailed description of each step.

                   Figure 1: Seven Steps in the Application and Enrollment Process
                                     for a Qualified Health Plan


                              Step 1: Applicant Provides Basic Personal Information



                                 Step 2: Marketplace Verifies Identity of Applicant



                                    Step 3: Applicant Completes the Application



                   Step 4: Marketplace Determines Eligibility of the Applicant for a QHP and,
                       When Applicable, Eligibility for Insurance Affordability Programs
                                                      Cha


                 Step 5: If the Applicant Is Eligible and Selects a QHP, Marketplace Transmits
                                   Enrollment Information to the QHP Issuer



                               Step 6: Applicant Submits Payment of QHP Premium



                           Step 7: Changes in Enrollment Are Reconciled Between the
                                         Marketplace and QHP Issuer


32
     45 CFR §§ 155.315(f)(5), (f)(6), and (g).
33
  For the purpose of this report, the term “enrollee” refers to an applicant who completed an application, was
determined eligible, and selected a QHP and whose enrollment information was sent to a QHP issuer.



Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)                           8
An applicant may submit an application to enroll in a QHP during an open enrollment period.
An applicant may also enroll in a QHP during a special enrollment period outside of the open
enrollment period if the applicant experiences certain life changes, such as marriage or birth of a
child. 34 For calendar year (CY) 2014, the open enrollment period was October 1, 2013, through
March 31, 2014. 35

Administration of the Federal, California, and Connecticut Marketplaces

CMS oversees implementation of certain ACA provisions related to the marketplaces. 36 CMS
also works with States to establish State and State-partnership marketplaces, including oversight
functions such as performing onsite reviews of system functionality for eligibility
determinations, enrollment of applicants, and consumer assistance. 37

Federal Marketplace

CMS established the Federal marketplace and is responsible for implementing many ACA
provisions governing all marketplaces, including verification of applicant information to
determine eligibility for enrollment in a QHP and insurance affordability programs. CMS
operates HealthCare.gov, the official Web site for the Federal marketplace.

California Marketplace

California was the first State to enact legislation creating a State marketplace. The public entity
known as Covered California established the California marketplace and is responsible for
operating it. 38 For CY 2014, the California marketplace has contracts with 11 health insurance
companies to offer QHPs to individuals.

The California marketplace created a centralized eligibility and enrollment system known as the
California Healthcare Eligibility, Enrollment, and Retention Systems (CalHEERS). CalHEERS
determines applicants’ eligibility for enrollment in QHPs and, when applicable, eligibility for
insurance affordability programs. CalHEERS also assesses applicants’ eligibility for Medicaid
and CHIP.



34
     ACA § 1311(c)(6) and 45 CFR § 155.410.
35
   The Federal and California marketplaces created a special enrollment period to allow applicants to finish the
application and enrollment process by April 15, 2014. The special enrollment period was open to applicants who
started their applications by March 31, 2014, and could not complete them because of high consumer traffic on the
marketplaces’ Web sites.
36
 The Center for Consumer Information and Insurance Oversight, within CMS, oversees implementation of the
ACA with respect to marketplaces.
37
     See generally 45 CFR §§ 155.110 and 155.1200.
38
     California Government Code, Title 22, §§ 100500–100521.



Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)                              9
Connecticut Marketplace

Connecticut enacted legislation to create a State marketplace. The public entity known as
Access Health CT established and operates the Connecticut marketplace. 39 For CY 2014, the
Connecticut marketplace has contracts with three insurance companies to offer QHPs to
individuals.

The Connecticut marketplace uses its enrollment system (Connecticut enrollment system) to
determine applicants’ eligibility for enrollment in QHPs and, when applicable, eligibility for
insurance affordability programs; the system also assesses the eligibility of most Medicaid-
eligible and CHIP applicants.

HOW WE CONDUCTED THIS REVIEW

We reviewed the internal controls that were in place at the Federal, California, and Connecticut
marketplaces from October to December 2013. We limited our review to those internal controls
related to (1) verifying identity of applicants, (2) determining applicants’ eligibility for
enrollment in QHPs and eligibility for insurance affordability programs, and (3) maintaining and
updating eligibility and enrollment data. These internal controls at each marketplace were not
necessarily the same. Appendix D provides general information on internal controls.

To determine the effectiveness of the internal controls at each marketplace, we:

       •   tested controls by reviewing a sample of 45 applicants randomly selected at each
           marketplace from all applicants who were determined eligible to enroll in QHPs with
           coverage effective January 1, 2014, 40 and

       •   performed other audit procedures, which included interviews with marketplace
           management, staff, and contractors; observation of staff performing tasks related to
           eligibility determinations; and reviews of supporting documentation and enrollment
           records.

Our attribute sampling approach is commonly used to test the effectiveness of internal controls
for compliance with laws, regulations, and policies. According to the Government
Accountability Office and President’s Council on Integrity and Efficiency’s 41 Financial Audit
Manual (July 2008), section 450, auditors may use a randomly selected sample of 45 items to
perform a compliance review. If all sample items are determined to be in compliance with

39
     Connecticut General Statute, §§ 38a-1080–1092.
40
   According to the enrollment data provided by the three marketplaces for all applicants who were determined
eligible to enroll in QHPs with coverage effective January 1, 2014, the Federal marketplace had 1,112,411
applicants, the California marketplace had 453,401 applicants, and the Connecticut marketplace had 34,095
applicants.
41
  The President’s Council on Integrity and Efficiency is now called the Council of the Inspectors General on
Integrity and Efficiency (Inspector General Act § 11).



Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)                          10
requirements, a conclusion that the controls are effective can be made. If one or more sample
items are determined not to be in compliance with requirements, a conclusion that the controls
are ineffective can be made. We tested the controls at each marketplace separately. Our
sampling methodology was limited to forming an opinion about whether the internal controls at
each marketplace were effective and was not designed to estimate the percentage of applicants
for whom each marketplace did not perform the required eligibility verifications.

For the 45 sample applicants for each marketplace, we reviewed supporting documentation to
evaluate whether the marketplace determined eligibility in accordance with Federal
requirements. During our fieldwork, questions arose concerning OIG’s access under the Internal
Revenue Code to Federal taxpayer information that IRS provides to marketplaces. We sought
authorization from IRS to access that information. Because the request was still pending when
we had completed our data collection, we did not review supporting documentation for certain
eligibility requirements, such as annual household income and family size, for the purpose of this
report. As a result, we could not evaluate whether each marketplace determined the 45 sample
applicants’ eligibility for advance premium tax credits and cost-sharing reductions according to
Federal requirements. 42

Further, we did not determine whether information submitted by the 45 sample applicants at each
marketplace was inaccurate or fraudulent because we could not independently verify the
accuracy of data stored at other Federal agencies, e.g., IRS and SSA. Instead, we focused our
review on determining the effectiveness of internal controls for processing that data and
addressing inconsistencies in eligibility data when identified by the marketplace.

Because the open enrollment period ended after December 31, 2013, marketplaces may have
received new information, which could have changed applicants’ eligibility for enrollment in
QHPs and, when applicable, eligibility for insurance affordability programs. We did not review
the marketplaces’ redeterminations of applicants’ eligibility that resulted from verifications of
information provided by applicants after December 31, 2013.

Our review of internal controls, which included reviewing 45 sample applicants and performing
other audit procedures, would not necessarily have detected all internal control deficiencies
because internal controls provide only reasonable assurance that each marketplace complied with
Federal requirements.

We performed fieldwork from November 2013 to May 2014 at the CMS offices in Bethesda and
Baltimore, Maryland; at the Covered California office in Sacramento, California; and at the
Access Health CT office in Hartford, Connecticut. We also performed fieldwork at selected
marketplace contractor offices in various locations.



42
  We were able to evaluate the Connecticut marketplace’s specific internal controls related to determining
applicants’ eligibility for advance premium tax credits and cost-sharing reductions according to Federal
requirements by performing other audit procedures. The marketplace provided us with additional data that enabled
us to evaluate the controls. The additional data did not contain Federal taxpayer information.



Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)                         11
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix E contains the details of our audit scope and methodology.

                                                   FINDINGS

Not all internal controls implemented by the Federal, California, and Connecticut marketplaces
were effective in ensuring that individuals were enrolled in QHPs according to Federal
requirements. The deficiencies in internal controls that we identified may have limited the
marketplaces’ ability to prevent the use of inaccurate or fraudulent information when
determining eligibility of applicants for enrollment in QHPs.

On the basis of our review of 45 sample applicants at each marketplace, we determined that
certain controls were effective, e.g., verification of applicants’ incarceration status at all
3 marketplaces. However, the internal controls were not effective for:

     •   validating Social Security numbers (one sample applicant) at the Federal marketplace,

     •   verifying citizenship (seven sample applicants) and lawful presence (one sample
         applicant) at the California marketplace, and

     •   performing identity proofing of phone applicants (one sample applicant) and verifying
         minimum essential coverage through non-employer-sponsored insurance (seven sample
         applicants) at the Connecticut marketplace. 43

On the basis of performing other audit procedures, such as interviews with marketplace officials
and reviews of supporting documentation, we determined that other controls were not effective.
For example, the Federal and California marketplaces did not always resolve inconsistencies in
eligibility data, and the Connecticut marketplace did not always properly determine eligibility for
insurance affordability programs.

The presence of an internal control deficiency does not necessarily mean that a marketplace
improperly enrolled an applicant in a QHP or improperly determined eligibility for insurance
affordability programs. Other mechanisms exist that may remedy the internal control deficiency,
such as the resolution process during the inconsistency period. For example, if a marketplace did
not have a control in place to verify an applicant’s citizenship through SSA as required, the
marketplace may still have been able to verify citizenship with satisfactory documentation
provided by the applicant during the inconsistency period.

43
  Connecticut marketplace officials stated that the marketplace planned to correct a system defect that prevented the
marketplace from storing verification data for minimum essential coverage through non-employer-sponsored
insurance for the seven applicants.



Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)                            12
Table 1 shows the deficiencies in internal controls identified at each marketplace, through both
testing of controls by reviewing 45 sample applicants and performing other audit procedures.

     Table 1: Deficiencies in Internal Controls Identified at the Three Marketplaces by
          Reviewing Sample Applicants and Performing Other Audit Procedures
                                 (October to December 2013)

                                                              Federal     California Connecticut
               Deficiencies Identified
                                                             Marketplace Marketplace Marketplace
Verifying Identity of Applicants and
Entering Application Information
Identity proofing of applicants was not always
                                                                                                           X
performed
Information from paper applications was not
                                                                                       X
always entered correctly into enrollment system
Determining Eligibility of Applicants
Social Security numbers were not always
validated through the Social Security                               X
Administration
Citizenship was not always verified through the
                                                                                       X
Department of Homeland Security
Lawful presence was not always verified
                                                                                       X
through the Department of Homeland Security
Eligibility for insurance affordability programs
                                                                                                           X
was not always determined properly
Inconsistencies in eligibility data were not
                                                                   X 44                X
always resolved
Maintaining and Updating Eligibility and
Enrollment Data
Eligibility data were not always properly
                                                                                       X                   X
maintained
System functionality to allow enrollees to
update enrollment information had not been                          X
developed
                                                     NOTES
 •   The absence of an “X” for a deficiency indicates that, on the basis of our review, nothing came to our
     attention to indicate that the marketplace had this deficiency.

 •   Although we identified deficiencies at each marketplace, the magnitude of the deficiencies varied. For
     example, the California marketplace did not verify citizenship through DHS for seven sample applicants but
     did not verify lawful presence through DHS for only one sample applicant.

44
 This deficiency was related to applicants for whom inconsistencies could not be resolved by the Federal
marketplace for certain eligibility requirements as of February 2014.



Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)                            13
These deficiencies occurred because (1) the marketplaces did not have procedures or did not
follow existing procedures to ensure that applicants were enrolled in QHPs according to Federal
requirements or (2) the marketplaces’ eligibility or enrollment systems had defects or lacked
functionality. For example, the Federal marketplace’s system functionality to resolve
inconsistencies in eligibility data had not been fully developed.

Appendix F lists the required verifications for eligibility determinations and the number of
sample applicants for whom the marketplaces did not perform the required verifications.

DEFICIENCIES RELATED TO VERIFYING IDENTITY OF APPLICANTS AND
ENTERING APPLICATION INFORMATION

Identity Proofing of Applicants Was Not Always Performed by the Connecticut
Marketplace

The Connecticut marketplace did not always perform identity proofing of applicants. Identity
proofing helps to ensure the privacy of personal information and to prevent an unauthorized
individual from submitting an online or phone application. On the basis of the information we
reviewed, nothing came to our attention to indicate that the Federal and California marketplaces
had this deficiency. 45

Federal Requirements

Marketplaces must establish and implement operational, technical, administrative, and physical
safeguards to ensure the confidentiality, integrity, and availability of personally identifiable
information that they create, collect, use, or disclose and to ensure that personally identifiable
information is used by or disclosed to only those authorized to receive or view it (45 CFR
§ 155.260(a)(4)).

According to CMS’s Identity Proofing Guidance for State marketplaces, before a marketplace
accepts an online or telephone application for enrollment in a QHP, it must conduct identity
proofing sufficient to provide assurance that only the appropriate individual has access to
restricted data. The guidance explains that identity proofing involves the (1) collection of core
attributes, including the applicant’s name, birth date, Social Security number (optional), address,
phone number, and email address; (2) validation of core attributes with a trusted data source; and
(3) for some applicants, collection and validation of responses to questions about the applicant’s
personal history, e.g., the names of current and past employers. CMS allows States to use
Federal identity-proofing services.




45
  The California marketplace did not perform identity proofing in accordance with CMS guidance. However, the
California marketplace obtained approval from CMS to delay implementing identity proofing. See the section
“Other Issues Noted at the Three Marketplaces.”



Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)                         14
The Connecticut Marketplace Did Not Always Perform Identity Proofing of Phone Applicants

For one of the three sample applicants who applied by phone, the Connecticut marketplace did
not perform identity proofing in accordance with CMS guidance. 46 The applicant completed an
application by phone to enroll in a QHP and never accessed her application through the Web
site. 47 Although the marketplace performed identity proofing of applicants who applied for
QHPs using the marketplace’s Web site, it did not do so for applicants who applied by phone
through the call center. However, if a phone applicant later accessed his or her application
through the Web site, the marketplace performed identity proofing at that time. The Connecticut
marketplace did not have a procedure to perform identity proofing of applicants who applied by
phone.

Information From Paper Applications Was Not Always Entered Correctly
by the California Marketplace Into Its Enrollment System

The California marketplace did not ensure that information included on paper applications was
always entered correctly into CalHEERS. If application information is not correctly entered, a
marketplace may incorrectly determine an applicant’s eligibility for enrollment in a QHP and,
when applicable, eligibility for insurance affordability programs. On the basis of the information
we reviewed, nothing came to our attention to indicate that the Federal and Connecticut
marketplaces had this deficiency.

Federal Requirements

Marketplaces must establish and implement privacy and security standards that are consistent
with certain principles. One of these principles is data integrity and quality. Under this
principle, a marketplace should take reasonable steps to ensure that personally identifiable
information is complete, accurate, and up to date to the extent necessary for the marketplace’s
intended purposes and has not been altered or destroyed in an unauthorized manner (45 CFR
§ 155.260(a)(3)(vi)).

The California Marketplace Did Not Ensure That Its Staff Correctly Entered Some Information
From Paper Applications Into CalHEERS

The California marketplace did not ensure that its staff correctly entered some information from
applicants’ paper applications into CalHEERS.48 The California marketplace had a procedure to
ensure that its staff correctly entered basic personal information, such as name, date of birth, and
Social Security number, into CalHEERS. However, the marketplace did not have a procedure,


46
 Marketplaces perform identify proofing of application filers. If a sample applicant was not the application filer,
we reviewed supporting documentation for identity proofing of the application filer.
47
  For the remaining two sample applicants, the marketplace performed identity proofing when the applicants had
completed their applications online.
48
     We identified this deficiency by performing audit procedures other than reviewing the 45 sample applicants.



Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)                                15
such as supervisory review, to ensure that other application information, such as annual
household income and citizenship, was entered correctly into CalHEERS.

For example, an applicant submitted a paper application listing household income of $450 per
week. 49 The applicant’s monthly income should have been entered into CalHEERS as
$1,948.50, by using the correct conversion factor of 4.33 for converting weekly to monthly
income ($450 × 4.33). However, California marketplace staff incorrectly entered the applicant’s
monthly income as $1,800 by using the incorrect conversion factor of 4 ($450 × 4). The staff did
not follow the marketplace’s manual, which instructed the staff to select an income frequency
(e.g., weekly or monthly) in the system instead of directly entering a total monthly income
amount. Without procedures to ensure that application information is correctly entered into
CalHEERS, the marketplace may incorrectly determine eligibility for insurance affordability
programs. According to California marketplace officials, the marketplace is developing a quality
control process for reviewing other paper application information, such as annual household
income and citizenship.

DEFICIENCIES RELATED TO DETERMINING ELIGIBILITY OF APPLICANTS

Social Security Numbers Were Not Always Validated Through the Social Security
Administration by the Federal Marketplace

The Federal marketplace did not always validate applicants’ Social Security numbers through
SSA. Without validating an applicant’s Social Security number, a marketplace cannot ensure
that the applicant meets eligibility requirements for enrollment in a QHP. On the basis of
information we reviewed, nothing came to our attention to indicate that the California and
Connecticut marketplaces had this deficiency.

Federal Requirements

A marketplace must validate an applicant’s Social Security number through SSA if the applicant
provides the Social Security number (ACA § 1411(c)(2) and 45 CFR § 155.315(b)).

The Federal Marketplace Did Not Always Validate Social Security Numbers Through the Social
Security Administration

For 1 of 44 sample applicants who submitted Social Security numbers, 50 the Federal marketplace
did not validate the applicant’s Social Security number through SSA. 51 The data provided by the
Federal marketplace showed that the applicant included a Social Security number on the

49
     We selected three paper applications to understand the paper application process at the California marketplace.
50
  We reviewed 44 of the 45 sample applicants for this deficiency because 1 sample applicant did not provide a
Social Security number.
51
  For the sample applicant who provided a Social Security number that was not validated, the eligibility verification
data provided by the Federal marketplace showed that the applicant attested to being a U.S. citizen, but the data did
not show that the marketplace verified the applicant’s citizenship through SSA as required.



Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)                                 16
application; however, the marketplace did not have data demonstrating that it validated the
Social Security number through SSA. As of April 8, 2014, CMS had not provided an
explanation of why the applicant’s Social Security number was not validated.

Citizenship Was Not Always Verified Through the Department of Homeland Security by
the California Marketplace

The California marketplace did not always verify applicants’ citizenship through DHS when
SSA could not verify citizenship. Without verifying citizenship in this manner, a marketplace
may place an applicant in an inconsistency period even though the applicant may be a U.S.
citizen. On the basis of the information we reviewed, nothing came to our attention to indicate
that the Federal and Connecticut marketplaces had this deficiency. 52

Federal Requirements

Marketplaces must verify an applicant’s citizenship through SSA. If SSA cannot verify an
applicant’s citizenship, the marketplace must verify citizenship through DHS if the applicant
provides documentation that can be verified through DHS and attests to citizenship. If the
marketplace cannot verify citizenship through DHS, the marketplace must make a reasonable
effort to identify and address the causes of the inconsistency (ACA § 1411(c)(2) and 45 CFR
§ 155.315(c)). If it is unable to resolve the inconsistency, the marketplace must notify the
applicant and generally provide the applicant with a period of 90 days to present satisfactory
documentary evidence of citizenship (ACA § 1411(e)(3) and 45 CFR § 155.315(c)(3)). During
the inconsistency period, the applicant may choose to enroll in a QHP and, when applicable, may
choose to receive advance premium tax credits and cost-sharing reductions (45 CFR
§ 155.315(f)(4)).

The California Marketplace Did Not Verify Citizenship Through the Department of Homeland
Security When Social Security Administration Information Was Inconsistent With Application
Information or Was Unavailable

For 7 of 10 sample applicants who attested that they were U.S. naturalized citizens 53 and
provided documentation that could be verified through DHS, 54 the California marketplace did
not verify citizenship through DHS when (1) the SSA system indicated that the applicant was not


52
  For one sample applicant, the Federal marketplace provided updated eligibility verification data instead of the
original data. Because the updated data did not include information on whether the marketplace verified the
applicant’s citizenship, we could not determine whether the marketplace verified citizenship.
53
  A U.S. naturalized citizen is a foreign citizen or national who has been granted U.S. citizenship after fulfilling the
requirements established by Congress in the Immigration and Nationality Act.
54
  The 10 sample applicants provided either naturalization or citizenship certificate numbers. A naturalization
certificate number is issued to a person who became a U.S. citizen through the naturalization process. A certificate
of citizenship is issued to a person born outside the United States who derived or acquired U.S. citizenship through a
parent who was a U.S. citizen.



Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)                                17
a U.S. citizen or (2) SSA information was unavailable 55 to verify citizenship. The California
marketplace placed six of the seven applicants in an inconsistency period when it should have
verified citizenship through DHS according to the Federal requirements. 56

The California marketplace’s process for verifying citizenship was incomplete. According to
California marketplace officials, CalHEERS was not designed to verify an applicant’s citizenship
through DHS when (1) the applicant attested to being a U.S. citizen and (2) the application
information did not match SSA information or SSA information was unavailable to verify
citizenship.

Lawful Presence Was Not Always Verified Through the Department of Homeland Security
by the California Marketplace

The California marketplace did not always verify applicants’ lawful presence through DHS.
Without verifying lawful presence in this manner, a marketplace may place an applicant in an
inconsistency period even though he or she is lawfully present. On the basis of the information
we reviewed, nothing came to our attention to indicate that the Federal and Connecticut
marketplaces had this deficiency.

Federal Requirements

A marketplace must verify an applicant’s lawful presence through DHS if the applicant attests to
not being a U.S. citizen but being lawfully present (ACA § 1411(c)(2)(B) and 45 CFR
§ 155.315(c)(2)).

The California Marketplace Did Not Always Verify Lawful Presence Through the Department of
Homeland Security

For one of three sample applicants who attested that they were not U.S. citizens but were
lawfully present, the California marketplace did not verify lawful presence through DHS. The
data provided by the California marketplace showed that the applicant entered information to
prove lawful presence; however, the marketplace did not have data demonstrating that it had
verified lawful presence through DHS.

Eligibility for Insurance Affordability Programs Was Not Always Determined Properly by
the Connecticut Marketplace

The Connecticut marketplace determined applicants to be eligible for insurance affordability
programs when they were not eligible. They were not eligible because they were Medicaid-
eligible or had not selected a silver-level QHP. On the basis of the information we reviewed,

55
     SSA information was unavailable because of Data Hub outages or the SSA system was offline.
56
  For one sample applicant, the California marketplace could not provide the eligibility verification data because the
applicant terminated her enrollment in a QHP. Without these data, we could not determine whether the California
marketplace placed the applicant in an inconsistency period.



Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)                             18
nothing came to our attention to indicate that the Federal and California marketplaces had this
deficiency.

Federal Requirements

An applicant eligible for non-employer-sponsored insurance, 57 including Medicaid, is not
eligible for the advance premium tax credit (45 CFR §§ 155.20 and 155.305(f) and 26 U.S.C.
§ 5000A(f)). Further, an applicant requesting cost-sharing reductions must select a silver-level
QHP (ACA § 1402(b)(1) and 45 CFR § 155.305(g)(1)(ii)).

The Connecticut Marketplace Improperly Determined Applicants Who Were Medicaid-Eligible
or Did Not Select Silver-Level Health Plans To Be Eligible for Insurance Affordability Programs

The Connecticut marketplace improperly determined Medicaid-eligible applicants to be eligible
for advance premium tax credits and applicants who did not select silver-level QHPs to be
eligible for cost-sharing reductions. 58 Of the 34,095 applicants whose eligibility information was
transmitted to QHP issuers, 223 Medicaid-eligible applicants who selected QHPs instead of
Medicaid were determined eligible for advance premium tax credits, and 619 applicants who did
not select silver-level QHPs were determined eligible for cost-sharing reductions.

A system programming error allowed some Medicaid-eligible applicants who selected QHPs to
be determined eligible for advance premium tax credits. Because of additional system
programming errors related to catastrophic plans offered by two QHP issuers, applicants who
selected these plans were automatically determined eligible for cost-sharing reductions.
Connecticut marketplace officials stated that they had corrected these programming errors in
December 2013 and March 2014, respectively, and had contacted applicants to correct
applications. We did not verify that the Connecticut marketplace had corrected these
programming errors and had contacted the applicants to correct the applications.

Inconsistencies in Eligibility Data Were Not Always Resolved by the Federal and California
Marketplaces

The Federal and California marketplaces did not always resolve inconsistencies in applicants’
eligibility data. Without resolving inconsistencies in an applicant’s eligibility data, a
marketplace cannot ensure that the applicant meets each of the eligibility requirements for
enrollment in a QHP and, when applicable, for insurance affordability programs. On the basis of
the information we reviewed, nothing came to our attention to indicate that the Connecticut
marketplace had this deficiency.




57
     Non-employer-sponsored insurance includes government programs, grandfathered plans, and other plans.
58
     We identified this deficiency by performing audit procedures other than reviewing the 45 sample applicants.



Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)                             19
Federal Requirements

Marketplaces must make a reasonable effort to identify and address the causes of inconsistencies.
If a marketplace is unable to resolve an inconsistency, it must notify the applicant of the
inconsistency and generally must provide the applicant with a period of 90 days from the date on
which the notice was sent to either present satisfactory documentary evidence or otherwise
resolve the inconsistency. 59 The marketplace may extend the inconsistency period when an
applicant demonstrates a good-faith effort to obtain sufficient documentation to resolve the
inconsistency (45 CFR § 155.315(f)(3)). During the inconsistency period, an applicant who is
otherwise qualified is eligible to enroll in a QHP and, when applicable, eligible for insurance
affordability programs (45 CFR § 155.315(f)(4)).

Marketplaces must maintain and ensure that their contractors, subcontractors, and agents
maintain for 10 years documents and records that are sufficient to enable HHS or its designees to
evaluate the marketplaces’ compliance with Federal requirements (45 CFR § 155.1210(a)). The
records must include data and records related to the marketplaces’ eligibility verifications and
determinations and enrollment transactions (45 CFR § 155.1210(b)(4)).

The Federal Marketplace Resolved Less Than 1 Percent of Inconsistencies Related to
Certain Eligibility Requirements as of February 2014

Information provided by CMS officials showed that the Federal marketplace system resolved
less than 1 percent of approximately 2.9 million inconsistencies in applicant data for the
11 eligibility requirements as of February 2014. 60, 61 The Federal marketplace was able to
resolve inconsistencies related to validation of an applicant’s Social Security number and
verification of incarceration status, whether the applicant was an Indian, and whether the
applicant was eligible for minimum essential coverage through non-employer-sponsored
insurance. However, the Federal marketplace was not able to resolve inconsistencies related to:

       •   citizenship,

       •   status as a national,

       •   lawful presence,

       •   residency,




59
     ACA § 1411(e)(4) and 45 CFR § 155.315(f).
60
     We identified this deficiency by performing audit procedures other than reviewing the 45 sample applicants.
61
     CMS stated that an applicant may have more than one inconsistency.



Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)                             20
     •   family size, 62

     •   annual household income, and

     •   whether the applicant was eligible for minimum essential coverage through employer-
         sponsored insurance.

Although the Federal marketplace received documentary evidence from applicants related to
inconsistencies, it could not resolve the inconsistencies because the system functionality to
resolve inconsistencies had not been fully developed. According to CMS officials, as of
February 23, 2014, the Federal marketplace had resolved approximately 10,000 of the
2.9 million inconsistencies (less than 1 percent). We did not validate the accuracy of CMS’s
figures.

The California Marketplace Did Not Resolve All Inconsistencies in Eligibility Data or
Maintain Documentation To Support Resolution of Inconsistencies

For 19 of the 25 sample applicants who had inconsistencies in their eligibility data, the California
marketplace did not resolve the inconsistencies. 63 For example, on November 30, 2013, the
marketplace determined that an applicant was eligible for a QHP and the advance premium tax
credit and notified the applicant of an inconsistency related to household income. The
marketplace requested that the applicant provide supporting documentation; however, it did not
resolve these inconsistencies by February 28, 2014, which was the end of the 90-day
inconsistency period. After that date, the California marketplace allowed the applicant to remain
enrolled in a QHP and eligible to receive an advance premium tax credit. 64 According to
California marketplace officials, the marketplace did not have the resources to resolve all
inconsistencies as required.

For two sample applicants, the California marketplace did not maintain documentation to support
the resolution of inconsistencies. The California marketplace provided case notes from county
eligibility workers. However, the case notes did not support that the inconsistencies were
resolved. For example, documentation provided by California showed that one sample applicant
had inconsistencies related to annual household income and citizenship, but the case notes
supported the resolution of the inconsistency for only annual household income. Although the


62
  Because of the lack of electronic data sources for verifying both residency and family size, marketplaces generally
may accept attestation without further verification as the basis for eligibility (45 CFR §§ 155.315(d) and
155.320(c)(3)(i)(C)). See the section “Other Issues Noted at the Three Marketplaces.”
63
  We identified this deficiency by performing other audit procedures in addition to reviewing the 45 sample
applicants.
64
  As of March 31, 2014, the California marketplace had not resolved these inconsistencies for the 19 sample
applicants. According to a marketplace official, the marketplace had continued to use the attested information of
applicants until completing a review of all documents submitted by applicants to resolve inconsistencies and
determining whether applicants had made a good-faith effort to provide requested documentation.



Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)                              21
California marketplace had a procedure for county eligibility workers to maintain supporting
documentation, the procedure was not followed.

DEFICIENCIES RELATED TO MAINTAINING AND UPDATING
ELIGIBILITY AND ENROLLMENT DATA

Eligibility Data Were Not Always Properly Maintained by the California and Connecticut
Marketplaces

The California and Connecticut marketplaces did not always properly maintain applicants’
eligibility data. If a marketplace does not maintain all eligibility data, it cannot sufficiently
demonstrate that applicants are eligible for enrollment in QHPs and, when applicable, eligible for
insurance affordability programs. On the basis of the information we reviewed, nothing came to
our attention to indicate that the Federal marketplace had this deficiency.

Federal Requirements

Marketplaces should take reasonable steps to ensure that personally identifiable information is
complete, accurate, and up to date to the extent necessary for the marketplace’s intended
purposes and has not been altered or destroyed in an unauthorized manner (45 CFR
§ 155.260(a)(3)(vi)).

Marketplaces must maintain and ensure that their contractors, subcontractors, and agents
maintain for 10 years documents and records that are sufficient to enable HHS or its designees to
evaluate the marketplaces’ compliance with Federal requirements (45 CFR § 155.1210(a)). The
records must include data and records related to the marketplaces’ eligibility verifications and
determinations and enrollment transactions (45 CFR § 155.1210(b)(4)).

The California Marketplace Maintained Conflicting Application and Eligibility Data

For 30 of 45 sample applicants, the California marketplace maintained conflicting application
and eligibility data. 65 The following are examples:

     •   When we observed one sample applicant’s information on the CalHEERS computer
         screen, the information showed that the applicant was a U.S. citizen; however, the data
         that the California marketplace provided to support the eligibility verification showed
         that the applicant was not a U.S. citizen. The California marketplace subsequently
         provided satisfactory documentation that this applicant was a U.S. citizen.

     •   For another sample applicant, the data that the California marketplace provided to
         support the eligibility verification had multiple data fields, one of which showed that the

65
  We identified this deficiency by performing other audit procedures in addition to reviewing the 45 sample
applicants. Although the California marketplace initially provided conflicting application and eligibility data, it later
provided additional data that we used to determine whether the required verifications were performed for the
45 sample applicants.



Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)                                22
        applicant was a U.S. citizen; however, another data field showed that the Data Hub was
        unavailable. Therefore, the California marketplace could not have verified the
        applicant’s citizenship through the Data Hub. The California marketplace subsequently
        provided satisfactory documentation that this applicant was a U.S. citizen.

According to California marketplace officials, CalHEERS stored the same information for an
applicant in multiple places; however, because of system defects within CalHEERS, the
application and eligibility data did not match in all places. The officials also stated that they had
corrected some of the system defects and planned to correct additional system defects in
CalHEERS.

The Connecticut Marketplace Did Not Always Store Eligibility Verification Data Confirming
Ineligibility for Non-Employer-Sponsored Insurance

For 7 of the 31 sample applicants who applied for financial assistance through insurance
affordability programs, the Connecticut marketplace could not provide eligibility verification
data confirming that the applicants were ineligible for minimum essential coverage through
non-employer-sponsored insurance. The Connecticut marketplace performed the verification
and demonstrated that it successfully received verification data through the Data Hub. However,
Connecticut marketplace officials explained that a system defect prevented the marketplace from
storing verification data for the seven applicants. The officials stated that they planned to correct
the system to ensure that it maintained these data.

System Functionality To Allow Enrollees To Update Enrollment Information Had Not
Been Developed by the Federal Marketplace

During our review period, the Federal marketplace had not developed system functionality to
allow enrollees to update enrollment information. If an enrollee cannot update enrollment
information because of life changes, he or she must submit a new application, resulting in
multiple records for the same enrollee. On the basis of the information we reviewed, nothing
came to our attention to indicate that the California and Connecticut marketplaces had this
deficiency.

Federal Requirements

In accordance with 45 CFR § 155.330(b), an enrollee in a QHP is required to report a life
change, such as marriage, child birth, or placement of a child for adoption or in foster care, with
respect to the eligibility standards specified in 45 CFR § 155.305 within 30 days of such a
change. In addition, a marketplace must redetermine the eligibility of an enrollee in a QHP if it
receives and verifies new information reported by the enrollee or identifies updated information
through the data-matching process in accordance with 45 CFR § 155.330.

Marketplaces should take reasonable steps to ensure that personally identifiable information is
complete, accurate, and up to date to the extent necessary for the marketplace’s intended
purposes and has not been altered or destroyed in an unauthorized manner (45 CFR
§ 155.260(a)(3)(vi)).



Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)             23
The Federal Marketplace Did Not Have System Functionality To Allow Enrollees To
Report Life Changes Affecting Eligibility

During the first 3 months of the open enrollment period (October to December 2013), the Federal
marketplace did not have system functionality to allow enrollees to report life changes affecting
their eligibility for enrollment in QHPs and, when applicable, eligibility for insurance
affordability programs. 66 If an enrollee had a life change, such as a marriage or birth of a child,
the enrollee had to complete a new application through the marketplace. The enrollment records
provided by CMS showed that 2,651 enrollees had a total of 6,674 enrollment records. 67
According to CMS, as of February 2014, this system functionality had been implemented;
however, we did not verify that this functionality was implemented.

                                                  CONCLUSION

Not all internal controls implemented by the Federal, California, and Connecticut marketplaces
were effective in ensuring that individuals were enrolled in QHPs according to Federal
requirements. The deficiencies in internal controls that we identified may have limited the
marketplaces’ ability to prevent the use of inaccurate or fraudulent information when
determining eligibility of applicants for enrollment in QHPs.

On the basis of our review of 45 sample applicants at each marketplace, we determined that
certain controls were effective, e.g., verification of applicants’ incarceration status at all
3 marketplaces. However, we also determined that other controls were not effective. For
example, the Federal marketplace did not always validate Social Security numbers through SSA,
and the California marketplace did not always verify applicants’ citizenship through DHS when
required.

On the basis of performing other audit procedures, such as interviews with marketplace officials
and reviews of supporting documentation, we determined that additional controls were not
effective. For example, the Federal and California marketplaces did not always resolve
inconsistencies in eligibility data, and the Connecticut marketplace did not always properly
determine eligibility for insurance affordability programs.

Overall, we identified deficiencies in internal controls related to (1) verifying identity of
applicants and entering application information, (2) determining applicants’ eligibility for
enrollment in QHPs and eligibility for insurance affordability programs, and (3) maintaining and
updating eligibility and enrollment data.

These deficiencies occurred because (1) the marketplaces did not have procedures or did not
follow existing procedures to ensure that applicants were enrolled in QHPs according to Federal

66
     We identified this deficiency by performing audit procedures other than reviewing the 45 sample applicants.
67
  The enrollment records showed that each of these enrollees was enrolled in only one health plan or one dental
plan or both. The enrollment records included 1,112,411 applicants for enrollment in QHPs with coverage effective
January 1, 2014.



Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)                             24
requirements or (2) the marketplaces’ eligibility or enrollment systems had defects or lacked
functionality.

                                        RECOMMENDATIONS

Our specific recommendations to CMS, Covered California, and Access Health CT are listed
below.

RECOMMENDATIONS TO CMS

We recommend that CMS address the deficiencies that we identified and continue to improve
internal controls at the Federal marketplace by:

    •   ensuring that Social Security numbers, when provided by applicants, are validated
        through SSA;

    •   fully developing system functionality to resolve all inconsistencies in eligibility data; and

    •   ensuring that the system functionality is fully developed to allow enrollees to report life
        changes affecting eligibility for enrollment in QHPs and, when applicable, eligibility for
        insurance affordability programs.

We also recommend that CMS redetermine, if necessary, the eligibility of the sample applicant
for whom we determined that the Federal marketplace did not validate the applicant’s Social
Security number through SSA as required.

In addition, we recommend that CMS work with Covered California and Access Health CT to
implement our recommendations listed below, which address deficiencies identified at the
California and Connecticut marketplaces.

RECOMMENDATIONS TO COVERED CALIFORNIA

We recommend that Covered California address the deficiencies that we identified and continue
to improve internal controls at the California marketplace by:

    •   implementing a procedure to ensure that all information from applicants’ paper
        applications is correctly entered into CalHEERS;

    •   designing a process to verify applicants’ citizenship through DHS when required;

    •   ensuring that applicants’ lawful presence is verified through DHS;

    •   ensuring that it resolves all inconsistencies in eligibility data;

    •   ensuring that it maintains documentation to support the resolution of inconsistencies; and



Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)             25
    •   correcting the system defects in CalHEERS to ensure that eligibility data are complete,
        accurate, and up to date.

We also recommend that Covered California redetermine, if necessary, the eligibility of the
sample applicants for whom we determined that verifications were not performed according to
Federal requirements.

RECOMMENDATIONS TO ACCESS HEALTH CT

We recommend that Access Health CT address the deficiencies that we identified and continue
to improve internal controls at the Connecticut marketplace by:

    •   developing and implementing a procedure to ensure that it performs identity proofing of
        phone applicants,

    •   ensuring that it corrected the system programming errors related to applicants’ eligibility
        for advance premium tax credits and cost-sharing reductions, and

    •   ensuring that it corrected a system defect related to maintaining eligibility verification
        data for minimum essential coverage through non-employer-sponsored insurance.

We also recommend that Access Health CT redetermine, if necessary, the eligibility of the
sample applicants for whom we determined that verifications were not performed according to
Federal requirements.

                           MARKETPLACES’ COMMENTS AND
                       OFFICE OF INSPECTOR GENERAL RESPONSES

CMS, Covered California, and Access Health CT provided written comments on our draft report:

    •   CMS concurred with all of our recommendations and provided information on actions
        that it had taken or planned to take to address our recommendations. However, it stated
        that it did not believe that the recommendations to perform identity proofing of all
        applicants and fully develop system functionality to allow enrollees to report life changes
        needed to be included in the report. After reviewing additional supporting documentation
        that CMS provided after issuance of our draft report, we removed our recommendation
        and the related finding on identify proofing of applicants.

    •   Covered California agreed with our recommendation that it ensure that documentation is
        maintained to support the resolution of inconsistencies and provided information on
        actions that it had taken or planned to take to address our remaining recommendations.
        Covered California did not concur with our findings that identity proofing of applicants
        was not always performed and citizenship was not always verified through DHS. In
        addition, it stated that it could not concur or disagree with our finding that lawful
        presence was not always verified through DHS. After reviewing supporting
        documentation that Covered California provided after issuance of our draft report, we


Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)               26
        removed our finding and the related recommendation on identity proofing of applicants;
        however, we included the issue in the section “Other Issues Noted at the Three
        Marketplaces.”

    •   Access Health CT concurred with three of our recommendations, but it did not concur
        with our recommendation to ensure that identity proofing of phone applicants is
        performed and with our finding that it did not verify applicants’ citizenship through DHS.
        After reviewing additional supporting documentation that Access Health CT provided
        after issuance of our draft report, we removed our finding and the related
        recommendation on citizenship verification.

The sections below provide more detail on the three marketplaces’ comments and our responses.
CMS’s, Covered California’s, and Access Health CT’s comments are included in their entirety as
Appendixes G, H, and I, respectively. CMS also provided technical comments on our draft
report, which we addressed as appropriate.

CMS COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, CMS concurred with all of our recommendations and
provided information on actions that it had taken or planned to take to address our
recommendations. However, it stated that it did not believe that two recommendations in our
draft report needed to be included. Regarding our recommendation to ensure that identity
proofing of all applicants is performed, CMS maintained that it had performed identity proofing
of all 45 sample applicants and provided OIG with additional supporting documentation after
issuance of our draft report. Regarding our recommendation to ensure that system functionality
is fully developed to allow enrollees to report life changes, CMS stated that it had already
implemented this functionality. CMS’s comments are included in their entirety as Appendix G.

After reviewing the additional supporting documentation that CMS provided, we removed our
recommendation and the related finding on identify proofing of applicants. Because CMS
implemented the system functionality to allow enrollees to report life changes after our audit
period, we did not verify the implementation. Therefore, we maintain that our recommendation
is valid.

COVERED CALIFORNIA COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Covered California agreed with our recommendation
that it ensure that documentation is maintained to support the resolution of inconsistencies and
provided information on actions that it had taken or planned to take to address our remaining
recommendations. Covered California also provided information on its concurrence and
nonconcurrence with our findings. Covered California’s comments are included in their entirety
as Appendix H.




Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)          27
Covered California Comments

Covered California concurred with our findings that (1) paper applications were not always
entered correctly into the enrollment system, (2) inconsistencies in eligibility data were not
always resolved, and (3) eligibility data were not always properly maintained. However,
regarding our finding on maintenance of eligibility data, Covered California stated that it did not
believe that maintaining conflicting application and eligibility data (which it referred to as
“inconsistencies within the internal tables”) degraded the accuracy of the eligibility process or
outcomes or both.

Covered California did not concur with our findings that identity proofing of applicants was not
always performed and citizenship was not always verified through the DHS and stated that it
could not concur or disagree with our finding that lawful presence was not always verified
through DHS:

     •   Regarding our finding and related recommendation on identity proofing, Covered
         California stated that it planned to implement remote identity proofing before
         November 15, 2014. 68 It stated that, for the first open enrollment period, with CMS’s
         approval, it had implemented an identity proofing process, which included accepting
         applicants’ electronic signatures (for online applications) and verbal attestations to
         identity made under penalty of perjury (for phone applications). After issuance of our
         draft report, Covered California provided OIG with supporting documentation of CMS’s
         approval. The documentation showed that CMS had approved Covered California’s
         interim solution for the identity-proofing process, which allowed Covered California to
         accept applicants’ electronic signatures and verbal attestations.

     •   Regarding our finding on verification of citizenship through DHS, Covered California
         stated that CMS had approved its citizenship verification process of using SSA data to
         electronically verify applicants’ citizenship. Covered California also stated that during
         the early months of open enrollment, the Data Hub was frequently offline, which had
         “impacted Covered California’s ability to verify some cases as noted in the audit.”

     •   Regarding our finding on verification of lawful presence through DHS, Covered
         California stated that it had consistently verified lawful presence with DHS. It also stated
         that verification of lawful presence for 1 of the 45 sample applicants “was not apparent in
         the data field of the record due to some form of technical error” and that it was
         conducting an analysis to determine whether this error resulted in any cases of lawful
         presence not being verified. Covered California stated that, until that analysis was
         complete, it could not concur or disagree with our finding.




68
  Remote identity proofing is a type of identity proofing that is performed electronically and provides immediate
feedback (i.e., whether an individual passed or failed the identity proofing) using information contained in Federal
data sources.



Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)                                 28
Office of Inspector General Response

Although Covered California stated that not properly maintaining eligibility data did not degrade
the accuracy of the eligibility process or outcomes, we did not validate its assertion. Without
reviewing all eligibility data affected by this deficiency, there is no assurance that the accuracy
of eligibility data was not affected.

Regarding the findings with which Covered California did not concur, we have the following
responses:

    •   After reviewing the supporting documentation that Covered California provided, we
        removed our finding and the related recommendation on identify proofing of applicants.

    •   We acknowledge that CMS approved Covered California’s eligibility verification plan,
        which allowed use of SSA data to verify citizenship. However, this verification process
        did not meet the Federal requirements that marketplaces verify applicants’ citizenship
        through DHS when (1) SSA cannot verify citizenship and (2) applicants provide
        documentation that can be used to verify citizenship through DHS.

    •   Covered California did not provide data that demonstrated that it had verified lawful
        presence through DHS. Therefore, we maintain that our finding and the related
        recommendation are valid.

ACCESS HEALTH CT COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Access Health CT concurred with three of our
recommendations. However, it did not concur with our recommendation to ensure that identity
proofing of phone applicants is performed and with our finding that it did not verify citizenship
through DHS. Access Health CT’s comments are included in their entirety as Appendix I.

Access Health CT Comments

Access Health CT did not concur with our recommendation and the related finding on identity
proofing of phone applicants. Access Health CT commented that a new phone applicant’s
identity was validated through the Data Hub when an application was submitted but before being
transferred to the QHP issuer. Access Health CT provided documentation showing that it
submitted to SSA an applicant’s name, Social Security number, and date of birth through the
Data Hub to verify an applicant’s identity. Access Health CT stated that if an applicant called
back after submitting an application, a call center representative would ask identity questions to
confirm that the applicant should be granted access to his or her account.

Access Health CT did not concur with our finding related to verification of applicants’
citizenship through DHS when SSA information was inconsistent with application information.
It stated that it had a process to verify applicants’ naturalized citizenship status through DHS and
that DHS cannot verify citizenship for individuals born in the United States.



Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)              29
Office of Inspector General Response

The Connecticut marketplace’s process of validating a new phone applicant’s identity through
the Data Hub did not meet the requirements for the identity-proofing process described in CMS’s
guidance. According to CMS guidance, to submit an application, the phone applicant must first
complete identity proofing. However, the Connecticut marketplace did not perform identity
proofing of a phone applicant until the applicant had called back after the application had been
submitted. Also, CMS guidance requires collecting core attributes, validating those core
attributes with a trusted data source, and collecting and validating responses to identity-proofing
questions for some applicants. The Connecticut marketplace’s process of validating information
through SSA for phone applicants did not meet these requirements. Therefore, we maintain that
our recommendation that Access Health CT develop and implement a procedure to ensure that it
performs identity proofing of phone applicants is consistent with CMS guidance.

After reviewing additional supporting documentation that Access Health CT provided after
issuance of our draft report, we removed our finding and the related recommendation on
verification of applicants’ citizenship through DHS.

                OTHER ISSUES NOTED AT THE THREE MARKETPLACES

In addition to deficiencies that we noted in our “Findings” section, we identified issues that may
be of interest to stakeholders. In written comments on our draft report, CMS, Covered
California, and Access Health CT provided comments on these issues, which are summarized in
the sections below.

IDENTITY PROOFING OF APPLICANTS WAS PERFORMED BY THE CALIFORNIA
MARKETPLACE ONLY BY ACCEPTING APPLICANTS’ ELECTRONIC
SIGNATURES OR VERBAL ATTESTATIONS

Marketplaces must establish and implement operational, technical, administrative, and physical
safeguards to ensure the confidentiality, integrity, and availability of personally identifiable
information that they create, collect, use, or disclose and to ensure that personally identifiable
information is used by or disclosed to only those authorized to receive or view it (45 CFR
§ 155.260(a)(4)).

According to CMS’s Identity Proofing Guidance for State marketplaces, before a marketplace
accepts an online or telephone application for enrollment in a QHP, it must conduct identity
proofing sufficient to provide assurance that only the appropriate individual has access to
restricted data. The guidance explains that identity proofing involves the (1) collection of core
attributes, including the applicant’s name, birth date, Social Security number (optional), address,
phone number, and email address; (2) validation of core attributes with a trusted data source; and
(3) for some applicants, collection and validation of responses to questions about the applicant’s
personal history, e.g., the names of current and past employers. CMS allows States to use
Federal identity-proofing services.




Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)               30
The California marketplace enrolled applicants without performing identity proofing in
accordance with CMS’s guidance because the marketplace obtained approval from CMS to adopt
an interim solution. Specifically, on September 23, 2013, the California marketplace obtained
approval that would allow it to accept electronic signatures for online applicants and verbal
attestations for phone applicants as proof of applicants’ identities. At the time of approval, CMS
required the California marketplace to fully implement remote identity proofing of applicants by
December 1, 2013. On December 2, 2013, the California marketplace sent CMS a letter
acknowledging that CMS had approved of a change in the implementation date of remote
identity proofing from December 1, 2013, to January 2014. On January 30, 2014, the California
marketplace sent CMS a letter stating that it planned to implement remote identity proofing on
May 1, 2014, or 30 days after the end of the open enrollment period, whichever was later.

In written comments on our draft report, Covered California stated that it planned to implement
remote identity proofing before November 15, 2014.

RESIDENCY WAS VERIFIED BY THE FEDERAL, CALIFORNIA, AND
CONNECTICUT MARKETPLACES ONLY BY ACCEPTING APPLICANTS’
ATTESTATION OF RESIDENCY

A marketplace must verify an applicant’s attestation regarding residency by accepting the
attestation without further verification or by examining data sources that are available to the
marketplace and that have been approved by HHS for this purpose. However, if information that
the applicant provides regarding residency is not reasonably compatible with other information
provided by the applicant or in the records of the marketplace, the marketplace must examine
information in data sources that are available to the marketplace and that have been approved by
HHS for this purpose. If the information in such data sources is not reasonably compatible with
the information provided by the applicant, the marketplace must follow procedures for resolution
of inconsistencies (45 CFR § 155.315(d)).

The Federal, California, and Connecticut marketplaces accepted the applicants’ attestation of
residency in accordance with Federal requirements, which do not call for further verification.
The marketplaces informed us that data sources were not available to them to verify residency.
Therefore, the marketplaces could accept only an applicant’s attestation to verify residency.

In written comments on our draft report, CMS stated that it did not believe that the marketplaces’
verification of residency by accepting applicants’ attestations needed to be a noted issue. CMS
stated that the marketplaces followed Federal requirements and there were not comprehensive,
national electronic data sources for residency verification available to the Federal marketplace.
In written comments on our draft report, Access Health CT stated that HHS had not identified an
approved source to verify residency.




Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)           31
FAMILY SIZE WAS VERIFIED BY THE FEDERAL, CALIFORNIA, AND
CONNECTICUT MARKETPLACES ONLY BY ACCEPTING APPLICANTS’
ATTESTATION OF FAMILY SIZE

A marketplace may verify an applicant’s family size by accepting an applicant’s attestation of a
tax filer’s family size for determining advance premium tax credits and cost-sharing reductions
(45 CFR § 155.320(c)(3)(i)(C)). However, if the marketplace finds that an applicant’s attestation
of a tax filer’s family size is not reasonably compatible with other information provided by the
applicant or in the records of the marketplace, the marketplace must examine income data
obtained through other electronic data sources to verify the attestation. If the information in such
data sources is not reasonably compatible with the applicant’s attestation, the marketplace must
follow procedures for resolution of inconsistencies (45 CFR § 155.320(c)(3)(i)(D)).

According to Federal, California, and Connecticut marketplace officials, the marketplaces
received IRS information on applicants’ family sizes during the eligibility determination process.
The marketplaces did not make IRS family-size data available to applicants or require them to
attest that these data were accurate. 69 The marketplaces accepted the applicants’ attestation of
family size in accordance with Federal requirements.

According to CMS, it initially planned to use IRS tax data to verify family size. However, it
determined that the number of exemptions on a tax return does not necessarily correspond to
actual family size, and there was not an efficient way to reconcile the tax return exemption data
with an individual’s family size attestation. Further, the Federal marketplace had no other data
source for family size. Therefore, CMS proceeded with accepting applicant attestations rather
than relying on IRS information or other electronic data sources.

In written comments on our draft report, CMS stated that it did not believe that the marketplaces’
verification of family size by accepting applicants’ attestation needed to be a noted issue. CMS
stated that the marketplaces followed Federal requirements and there were not comprehensive,
national electronic data sources for verification of family size available to the Federal
marketplace. In written comments on our draft report, Access Health CT stated that “IRS data
for dependent determination may not be accurate as of the time of enrollment with respect to
determining an applicant’s household size.”

ENROLLMENT RECORDS WERE NOT ALWAYS PROMPTLY SENT TO
QUALIFIED HEALTH PLAN ISSUERS BY THE CONNECTICUT MARKETPLACE

Marketplaces must send eligibility and enrollment information to QHP issuers and HHS
“promptly and without undue delay” (45 CFR § 155.400(b)(1)).

Before January 1, 2014, the Connecticut marketplace did not promptly send to QHP issuers the
enrollment records for 139 of the 34,095 applicants who had been determined eligible and had
selected QHPs. This occurred because marketplace staff identified issues with the applications

69
  The IRS family-size data is considered Federal taxpayer information that is protected from disclosure by Internal
Revenue Code § 6103.



Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)                            32
but did not inform other staff who were responsible for correcting these issues. When some of
these applicants reported to the Connecticut marketplace that QHP issuers had not received their
information, the marketplace successfully resolved the issues for 121 applicants and transmitted
their information to the issuers. However, as of April 2, 2014, the marketplace had not been able
to contact 18 applicants to resolve the application issues.

In written comments on our draft report, Access Health CT stated that it was not able to contact
the 18 applicants after 3 attempts. It stated that it did not enroll those applicants in QHPs and did
not send their enrollment data to the QHP issuers.

APPROPRIATE ADVANCE PREMIUM TAX CREDITS WERE NOT ALWAYS
REPORTED TO QUALIFIED HEALTH PLAN ISSUERS BY THE CONNECTICUT
MARKETPLACE

Marketplaces must calculate advance premium tax credits in accordance with IRS regulations.
These regulations require an applicant’s maximum monthly advance premium tax credit to be the
lesser of the applicant’s monthly insurance premium or one-twelfth of the applicant’s projected
premium tax credit. 70 The marketplaces must ensure that the correct amounts of advance
premium tax credits are reported to QHP issuers.

Of the 34,095 applicants whose eligibility information was transmitted to QHP issuers,
8 applicants had monthly advance premium tax credits amounts that were greater than their
monthly insurance plan premiums. After a QHP issuer alerted the Connecticut marketplace to
the problem, the marketplace implemented a system change to prevent advance premium tax
credit amounts from exceeding insurance premium amounts.

This issue at the Connecticut marketplace is an example of the challenges that marketplaces may
have in ensuring accurate reporting of advance premium tax credits to QHP issuers.

In written comments on our draft report, Access Health CT stated that a system correction had
been released to ensure that, going forward, the advance premium tax credits selected would
always be less than the total premium on all applications.

DOCUMENTATION WAS NOT PROVIDED BY THE FEDERAL MARKETPLACE TO
SUPPORT THAT REQUIRED MONTHLY RECONCILIATIONS FOR QUALIFIED
HEALTH PLANS WERE PERFORMED

Marketplaces are required to reconcile enrollment information with QHP issuers and HHS no
less frequently than monthly (45 CFR § 155.400(d)). According to a preamble of the Federal
Register, CMS expects that marketplaces will work to minimize enrollment discrepancies,
automate reconciliation where possible, and streamline any manual reconciliation activities that
remain necessary. 71

70
     45 CFR § 155.305(f)(5) and 26 CFR § 1.36B-3.
71
     77 Fed. Reg. 18310, 18385 (Mar. 27, 2012).



Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)            33
Although the Federal marketplace obtained the services of a contractor to reconcile enrollment
information transmitted to and received from QHP issuers monthly, the marketplace did not
provide documentation to support that the contractor performed the required monthly
reconciliations for enrollment information exchanged between QHP issuers and the Federal
marketplace. CMS officials stated that the system to support the reconciliations had yet to be
developed. Without monthly QHP reconciliations, CMS cannot effectively monitor the current
enrollment status of applicants, such as applicants’ selection of QHPs and QHPs’ termination of
plans.

In written comments on our draft report, CMS stated that the automated payment and reporting
system between QHP issuers and CMS was not complete or fully tested. CMS also stated that it
had an interim process, which allowed QHP issuers to submit aggregate information on a
monthly basis to receive financial assistance payments.




Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)        34
              APPENDIX A: MARKETPLACE TYPE USED IN EACH STATE
                            AS OF OCTOBER 1, 2013

                   Figure 2: Map Showing Type of Marketplace in Each State
                                    as of October 1, 2013




Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)   35
               Table 2: Type of Marketplace in Each State as of October 1, 2013

                                 State                   Type of Marketplace
                        Alabama                                 Federal
                        Alaska                                  Federal
                        Arizona                                 Federal
                        Arkansas                           State-partnership
                        California                               State
                        Colorado                                 State
                        Connecticut                              State
                        Delaware                           State-partnership
                        District of Columbia                     State
                        Florida                                 Federal
                        Georgia                                 Federal
                        Hawaii                                   State
                        Idaho*                                  Federal
                        Illinois                           State-partnership
                        Indiana                                 Federal
                        Iowa                               State-partnership
                        Kansas                                  Federal
                        Kentucky                                 State
                        Louisiana                               Federal
                        Maine                                   Federal
                        Maryland                                 State
                        Massachusetts                            State
                        Michigan                           State-partnership
                        Minnesota                                State
                        Mississippi                             Federal
                        Missouri                                Federal
                        Montana                                 Federal
                        Nebraska                                Federal
                        Nevada                                   State
                        New Hampshire                      State-partnership
                        New Jersey                              Federal
                        New Mexico*                             Federal
                        New York                                 State

* Idaho and New Mexico had begun to establish State marketplaces; however, they used the
Federal marketplace as of October 1, 2013.




Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)     36
           Table 2 (cont.): Type of Marketplace in Each State as of October 1, 2013

                                State                    Type of Marketplace
                        North Carolina                          Federal
                        North Dakota                            Federal
                        Ohio                                    Federal
                        Oklahoma                                Federal
                        Oregon                                   State
                        Pennsylvania                            Federal
                        Rhode Island                             State
                        South Carolina                          Federal
                        South Dakota                            Federal
                        Tennessee                               Federal
                        Texas                                   Federal
                        Utah                                    Federal
                        Vermont                                  State
                        Virginia                                Federal
                        Washington                               State
                        West Virginia                      State-partnership
                        Wisconsin                               Federal
                        Wyoming                                 Federal




Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)   37
        APPENDIX B: FEDERAL ELIGIBILITY REQUIREMENTS FOR QUALIFIED
           HEALTH PLANS AND INSURANCE AFFORDABILITY PROGRAMS

ELIGIBILITY REQUIREMENTS FOR APPLICANTS

Eligibility Requirements for Enrollment in a Qualified Health Plan

45 CFR § 155.305(a)

To be eligible for enrollment in a QHP through a marketplace, the applicant must:

       •   be a citizen, national, or noncitizen who is lawfully present in the United States;

       •   not be incarcerated, other than pending the disposition of charges; and

       •   meet applicable residency standards.

Eligibility Requirements for Advance Premium Tax Credits

45 CFR § 155.305(f)

To be eligible for the advance premium tax credit, the applicant must:

       •   expect to have household income from 100 through 400 percent of the Federal poverty
           level;

       •   meet the requirements for eligibility for enrollment in a QHP;

       •   not be eligible for minimum essential coverage, with the exception for coverage in the
           individual market; 72 and

       •   be enrolled in a QHP that is not a catastrophic plan.

A lawfully residing noncitizen with income below 100 percent of the Federal poverty level and
who is not eligible for Medicaid may also be eligible for the advance premium tax credit.

The marketplace authorizes the advance premium tax credit on behalf of a tax filer only if the
filer attests to complying with certain tax requirements. 73



72
  Minimum essential coverage is defined in 26 U.S.C. § 5000A(f) and regulations issued under that section. As
described in section 5000A(f), government-sponsored programs, eligible employer-sponsored plans, grandfathered
health plans, and certain other health benefits coverage are minimum essential coverage (26 CFR § 1.36B-2(c)).
73
     45 CFR § 155.310(d)(2)(ii).



Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)                       38
Eligibility Requirements for Cost-Sharing Reductions

45 CFR § 155.305(g)

To be eligible for cost-sharing reductions, the applicant must:

    •   meet the eligibility requirement for enrollment in a QHP through the marketplace,

    •   meet the requirements for the advance premium tax credit,

    •   have household income from 100 through 250 percent of the Federal poverty level, and

    •   be enrolled in a silver-level plan through the marketplace.

A lawfully residing noncitizen with income below 100 percent of the Federal poverty level and
who is not eligible for Medicaid may also be eligible for cost-sharing reductions.

VERIFICATION REQUIREMENTS FOR MARKETPLACES

Enrollment in a Qualified Health Plan

ACA § 1411(b)

An applicant for enrollment in a QHP offered through the individual marketplace must provide
the name, address, and date of birth of each individual who is to be covered by the QHP and the
following information for each individual covered by the QHP:

    •   Social Security number, citizenship, or immigration status;

    •   income and family size for the coverage year or within 2 preceding years for an applicant
        claiming the premium tax credit or reduced cost-sharing; and

    •   employer-sponsored coverage for an applicant claiming the premium tax credit or
        reduced cost-sharing.

ACA § 1411(c)(1)

A marketplace must submit the information provided by an applicant under ACA § 1411(b) to
HHS for verification in accordance with the requirements of ACA §§ 1411(c) and (d).

ACA § 1411(d)

In the case of information provided under ACA § 1411(b) that is not required under
ACA § 1411(c) to be submitted to another person for verification, HHS must verify the accuracy
of such information in such manner as HHS determines appropriate, including delegating
responsibility for verification to the marketplace.


Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)          39
Insurance Affordability Programs

ACA § 1411(c)(3)

For determination of eligibility for the premium tax credit and cost-sharing reductions, HHS
must submit household income and family size information to IRS for verification.

Social Security Number

45 CFR § 155.315(b)

For any applicant who provides his or her Social Security number to the marketplace, the
marketplace must transmit the Social Security number and other identifying information to HHS,
which will submit it to SSA.

If the marketplace is unable to validate an applicant’s Social Security number through SSA or
SSA indicates that the applicant is deceased, the marketplace “must follow the procedures
specified in paragraph (f) of this section, except that the [marketplace] must provide the
applicant with a period of 90 days from the date on which the notice described in paragraph
(f)(2)(i) of this section is received for the applicant to provide satisfactory documentary evidence
or resolve the inconsistency” with SSA. The date on which the notice is received means 5 days
after the date on the notice, unless the applicant demonstrates that he or she did not receive the
notice within the 5-day period.

Citizenship, Status as a National, or Lawful Presence

ACA § 1411(c)(2)

For citizenship, HHS must submit to SSA the following information for a determination as to
whether the information provided is consistent with the information in the records of SSA:
name, date of birth, and Social Security number of each individual covered by the QHP and the
attestation of an applicant that he or she is a U.S. citizen.

If an applicant attests that he or she is (1) an alien lawfully present in the United States or (2) a
citizen, but SSA notifies HHS that the attestation to citizenship is inconsistent with information
in the records maintained by SSA, HHS must submit to DHS the following information: name,
date of birth, and any identifying information with respect to the applicant’s immigration status;
attestation that the applicant is an alien lawfully present in the United States; or attestation that
the applicant is a citizen. DHS then determines whether the information provided is consistent
with the information in the records of DHS.

45 CFR § 155.315(c)

The marketplace must verify an applicant’s citizenship, status as a national, or lawful presence
with records from SSA. For an applicant who attests to citizenship and has a Social Security




Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)              40
number, the marketplace must transmit the applicant’s Social Security number and other
identifying information to HHS, which will submit it to SSA.

For an applicant who has documentation that can be verified through DHS and who attests to
lawful presence, or who attests to citizenship and for whom the marketplace cannot substantiate
a claim of citizenship through SSA, the marketplace must transmit information from the
applicant’s documentation and other identifying information to HHS, which will submit
necessary information to DHS for verification.

For an applicant who attests to citizenship, status as a national, or lawful presence and for whom
the marketplace cannot verify such attestation through SSA or DHS, the marketplace “must
follow the procedures specified in paragraph (f) of this section, except that the [marketplace]
must provide the applicant with a period of 90 days from the date on which the notice described
in paragraph (f)(2)(i) of this section is received for the applicant to provide satisfactory
documentary evidence or resolve the inconsistency” with SSA or DHS, as applicable. The date
on which the notice is received means 5 days after the date on the notice, unless the applicant
demonstrates that he or she did not receive the notice within the 5-day period.

Incarceration Status

ACA § 1312(f)(1)(B)

An individual must not be treated as a qualified individual if, at the time of enrollment, the
individual is incarcerated, other than incarceration pending the disposition of charges.

45 CFR § 155.315(e)

The marketplace must verify an applicant’s attestation, which is made subject to penalty of
perjury and other penalties under § 1411(h) of the ACA that he or she is not incarcerated by:

        (1) Relying on any electronic data sources that are available to the [marketplace]
        and which have been approved by HHS for this purpose, based on evidence
        showing that such data sources are sufficiently current, accurate, and offer less
        administrative complexity than paper verification; or

        (2) Except as provided in paragraph (e)(3) of this section, if an approved data
        source is unavailable, accepting his or her attestation without further verification.

        (3) To the extent that an applicant’s attestation is not reasonably compatible with
        information from approved data sources described in paragraph (e)(1) of this
        section or other information provided by the applicant or in the records of the
        [marketplace], the [marketplace] must follow the procedures specified in
        § 155.315(f).




Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)           41
Residency

45 CFR § 155.315(d)

The marketplace must verify an applicant’s attestation that he or she meets the standards
of § 155.305(a)(3) as follows:

        (1) Except as provided in paragraphs (d)(3) and (4) of this section, accept his or
            her attestation without further verification; or

        (2) Examine electronic data sources that are available to the [marketplace] and
            which have been approved by HHS for this purpose, based on evidence
            showing that such data sources are sufficiently current and accurate, and
            minimize administrative costs and burdens.

        (3) If information provided by an applicant regarding residency is not reasonably
            compatible with other information provided by the individual or in the records
            of the [marketplace] the [marketplace] must examine information in data
            sources that are available to the [marketplace] and which have been approved
            by HHS for this purpose, based on evidence showing that such data sources
            are sufficiently current and accurate.

        (4) If the information in such data sources is not reasonably compatible with the
            information provided by the applicant, the [marketplace] must follow the
            procedures specified in paragraph (f) of this section. Evidence of immigration
            status may not be used to determine that an applicant is not a resident of the
            [marketplace] service area.

Indian Attestation

45 CFR § 155.350(c)

To the extent that an applicant attests that he or she is an Indian, the marketplace must verify
such attestation by:

        (1) Utilizing any relevant documentation verified in accordance with
        § 155.315(f);

        (2) Relying on any electronic data sources that are available to the [marketplace]
        and which have been approved by HHS for this purpose, based on evidence
        showing that such data sources are sufficiently accurate and offer less
        administrative complexity than paper verification; or

        (3) To the extent that approved data sources are unavailable, an individual is not
        represented in available data sources, or data sources are not reasonably
        compatible with an applicant’s attestation, the [marketplace] must follow the



Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)             42
        procedures specified in § 155.315(f) and verify documentation provided by the
        applicant in accordance with the standards for acceptable documentation provided
        in section 1903(x)(3)(B)(v) of the Social Security Act.

Family Size

ACA §§ 1411(c)(1) and (3)

The marketplace must verify family size information submitted by applicants with information
from IRS.

45 CFR § 155.320(c)(3)(i)

        (A) The [marketplace] must require an applicant to attest to the individuals that
        comprise a tax filer’s family for advance payments of the premium tax credit and
        cost-sharing reductions.

        (B) To the extent that the applicant attests that the information described in
        paragraph (c)(1)(i) of this section represents an accurate projection of a tax filer’s
        family size for the benefit year for which coverage is requested, the [marketplace]
        must determine the tax filer’s eligibility for advance payments of the premium tax
        credit and cost-sharing reductions based on the family size data in paragraph
        (c)(1)(i) of this section.

        (C) To the extent that the data described in paragraph (c)(1)(i) of this section is
        unavailable, or an applicant attests that a change in circumstances has occurred or
        is reasonably expected to occur, and so it does not represent an accurate
        projection of a tax filer’s family size for the benefit year for which coverage is
        requested, the [marketplace] must verify the tax filer’s family size for advance
        payments of the premium tax credit and cost-sharing reductions by accepting an
        applicant’s attestation without further verification, except as specified in
        paragraph (c)(3)(i)(D) of this section.

        (D) If the [marketplace] finds that an applicant’s attestation of a tax filer’s family
        size is not reasonably compatible with other information provided by the
        application filer for the family or in the records of the [marketplace], with the
        exception of the data described in paragraph (c)(1)(i) of this section, the
        [marketplace] must utilize data obtained through other electronic data sources to
        verify the attestation. If such data sources are unavailable or information in such
        data sources is not reasonably compatible with the applicant’s attestation, the
        [marketplace] must request additional documentation to support the attestation
        within the procedures specified in § 155.315(f).




Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)           43
Annual Household Income

45 CFR § 155.320(c)(1)(i)

For all individuals whose income is counted in calculating a tax filer’s household income, or an
applicant’s household income and for whom the marketplace has a Social Security number, the
marketplace must request tax return data from IRS regarding modified adjusted gross income
and family size and data regarding Social Security benefits from SSA.

45 CFR § 155.320(c)(3)(ii)

        (A) The [marketplace] must compute annual household income for the family
        described in paragraph (c)(3)(i)(A) of this section based on the data described in
        paragraph (c)(1)(i) of this section.

        (B) The [marketplace] must require the applicant to attest regarding a tax filer’s projected
        annual household income.

        (C) To the extent that the applicant’s attestation indicates that the information described
        in (c)(3)(ii)(A) of this section represents an accurate projection of the tax filer’s
        household income for the benefit year for which coverage is requested, the [marketplace]
        must determine the tax filer’s eligibility for advance payments of the premium tax credit
        and cost-sharing reductions based on the household income data in paragraph
        (c)(3)(ii)(A) of this section.

        (D) To the extent that the data described in paragraph (c)(1)(i) of this section is
        unavailable, or an applicant attests that a change in circumstances has occurred or is
        reasonably expected to occur, and so it does not represent an accurate projection of the
        tax filer’s household income for the benefit year for which coverage is requested, the
        [marketplace] must require the applicant to attest to the tax filer’s projected household
        income for the benefit year for which coverage is requested.

Minimum Essential Coverage Through Employer-Sponsored Insurance

ACA § 1411(b)(4)

The marketplace must verify whether an applicant is eligible for employer-sponsored coverage
for the purposes of determining eligibility for advance premium tax credits and cost-sharing
reductions. The applicant is required to provide the name, address, and employer identification
number (if available) of the employer; whether the applicant is a full-time employee and whether
the employer provides minimum essential coverage; if the employer provides minimum essential
coverage, the lowest cost option for the applicant or the applicant’s required contribution under
the employer-sponsored plan; and if the applicant claims an employer’s minimum essential
coverage is unaffordable, information regarding income and family size.




Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)              44
45 CFR § 155.320(d)

The marketplace must verify whether an applicant reasonably expects to be enrolled in an
eligible employer-sponsored plan or is eligible for qualifying coverage in an eligible employer-
sponsored plan for the benefit year for which coverage is requested.

The marketplace must:

        (i)      Obtain data about enrollment in and eligibility for an eligible employer-
                 sponsored plan from any electronic data sources that are available to the
                 [marketplace] and which have been approved by HHS, based on evidence
                 showing that such data sources are sufficiently current, accurate, and
                 minimize administrative burden.

        (ii)     Obtain any available data regarding enrollment in employer-sponsored
                 coverage or eligibility for qualifying coverage in an eligible employer-
                 sponsored plan based on federal employment by transmitting identifying
                 information specified by HHS to HHS for HHS to provide the necessary
                 verification using data obtained by HHS.

        (iii)    Obtain any available data from the SHOP that corresponds to the State in
                 which the [marketplace] is operating.

Minimum Essential Coverage Through Non-Employer-Sponsored Insurance

45 CFR § 155.320(b)(1)

        (i)      The [marketplace] must verify whether an applicant is eligible for
                 minimum essential coverage other than through an eligible employer-
                 sponsored plan, Medicaid, CHIP, or the [Basic Health Program], using
                 information obtained by transmitting identifying information specified by
                 HHS to HHS for verification purposes.

        (ii)     The [marketplace] must verify whether an applicant has already been
                 determined eligible for coverage through Medicaid, CHIP, or the [Basic
                 Health Program], if a [Basic Health Program] is operating in the service
                 area of the [marketplace], within the State or States in which the
                 [marketplace] operates using information obtained from the agencies
                 administering such programs.

Resolution of Inconsistencies in Eligibility Data

ACA § 1411(e)

If the information provided by an applicant is inconsistent with information in the records
maintained by the Federal agencies that the marketplaces must verify applicant information with,



Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)             45
HHS must notify the marketplace, and the marketplace must make a reasonable effort to identify
and address the causes of such inconsistency.

In the case the inconsistency or inability to verify is not resolved, the marketplace must notify
the applicant of such fact and provide the applicant an opportunity to either present satisfactory
documentary evidence or resolve the inconsistency during the 90-day period beginning on the
date on which the notice is sent to the applicant. HHS may extend the 90-day period for
enrollments occurring during CY 2014 (except for citizenship and immigration status).

45 CFR § 155.315(f)

For an applicant for whom the marketplace cannot verify information required to determine
eligibility for enrollment in a QHP, the advance premium tax credit, and cost-sharing reductions,
the marketplace:

    •   must make a reasonable effort to identify and address the causes of such inconsistency,
        including through typographical or other clerical errors, by contacting the applicant to
        confirm the accuracy of the information submitted;

    •   must provide notice to the applicant regarding the inconsistency and provide the applicant
        with a period of 90 days from the date when the notice is sent to the applicant to present
        satisfactory documentary evidence to the marketplace, if the marketplace is unable to
        resolve the inconsistency through reasonable efforts; and

    •   may extend the 90-day period for an applicant if the applicant demonstrates that a
        good-faith effort has been made to obtain the required documentation during the period.

During the 90-day inconsistency period, a marketplace must:

    •   proceed with all other elements of eligibility determination using the applicant’s
        attestation and provide eligibility for enrollment in a QHP to the extent that an applicant
        is otherwise qualified and

    •   ensure that advance payments of the premium tax credit and cost-sharing reductions are
        provided on behalf of an applicant within this period who is otherwise qualified for such
        payments and reductions, as described in § 155.305, if the tax filer attests to the
        marketplace that he or she understands that any advance payments of the premium tax
        credit paid on his or her behalf are subject to reconciliation.

If, after a 90-day inconsistency period, a marketplace remains unable to verify the attestation, a
marketplace must determine the applicant’s eligibility on the basis of the information available
from the data sources, unless the applicant qualifies for the exception provided under paragraph
(g) of § 155.315.

When electronic data to support the verifications for residency or minimum essential coverage
other than through an eligible employer-sponsored plan is required but it is not reasonably


Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)               46
expected that data sources will be available within 1 day of the initial request to the data source,
a marketplace must accept the applicant’s attestation regarding the factor of eligibility for which
the unavailable data source is relevant.

Redetermination of Eligibility

45 CFR § 155.330(a)

The marketplace must redetermine the eligibility of an enrollee in a QHP through the
marketplace during the benefit year if it receives and verifies new information reported by an
enrollee or identifies updated information through the data matching described in paragraph (d)
of this section.

45 CFR § 155.330(b)

The marketplace must require an enrollee to report any change with respect to the eligibility
standards specified in § 155.305 within 30 days of such change, except that the marketplace:

    •   must not require an enrollee who did not request an eligibility determination for
        insurance affordability programs to report changes that affect eligibility for those
        programs;

    •   may establish a reasonable threshold for changes in income, such that an enrollee who
        experiences a change in income that is below the threshold is not required to report such a
        change; and

    •   must allow an enrollee to report changes via the channels available for the submission of
        an application, as described in § 155.405(c).




Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)             47
      APPENDIX C: SEVEN STEPS IN THE APPLICATION AND ENROLLMENT
                 PROCESS FOR A QUALIFIED HEALTH PLAN

Step 1: Applicant Provides Basic Personal Information

The applicant provides basic personal information, such as name, birth date, and Social Security
number.

Step 2: Marketplace Verifies Identity of Applicant

Before an applicant can submit an online or phone application, the marketplace must verify the
applicant’s identity through identity proofing. The purpose of identity proofing is to prevent an
unauthorized individual from creating a marketplace account for another individual and applying
for health coverage without the individual’s knowledge and to safeguard personally identifiable
information created, collected, and used by the marketplace. Before an applicant can create an
online account and complete an application, the marketplace’s Web site lists questions and asks
the applicant to answer them to verify his or her identity. For an applicant applying by phone,
marketplace staff complete an online application on behalf of the applicant; a staff member asks
questions based on public records about the individual and selects the answers the applicant
chooses. 74

For the Federal marketplace, CMS uses a contractor to perform identity-proofing services and
makes these services available to State marketplaces. The contractor verifies the identity of the
applicant using a process that is similar to the one it uses to verify the identities of consumers
performing certain online commercial transactions.

Step 3: Applicant Completes the Application

The applicant completes the application by providing information such as citizenship or
immigration status. If applying for insurance affordability programs, the applicant provides
additional information, such as family size and household income. For a paper application, a
marketplace’s staff or contractor manually enters the information into the eligibility or
enrollment system.

Step 4: Marketplace Determines Eligibility of the Applicant for a Qualified Health Plan
and, When Applicable, Eligibility for Insurance Affordability Programs

On the basis of the information provided on the application and obtained from electronic data
sources, such as IRS, the marketplace determines the applicant’s eligibility to enroll in the
selected QHP and eligibility for insurance affordability programs in accordance with Federal
requirements. The marketplace verifies these items through multiple electronic data sources,
including sources available through the Data Hub.

74
  CMS’s Identity Proofing Guidance. For paper applications, the marketplace accepts the applicant’s written or
electronic signature under the penalty of perjury. An individual who submits a paper application must complete
identity verification steps to access application and QHP information electronically.



Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)                           48
Steps 5, 6, and 7: Marketplace Transmits Enrollment Information to the Qualified Health
Plan Issuer, Applicant Finalizes Enrollment by Submitting Payment, and Marketplace
Reconciles Enrollment Information

If the applicant is determined to be eligible to enroll in a QHP, the marketplace is required to
transmit the enrollment information to the QHP issuer for the QHP that the applicant selected
(45 CFR § 155.400). This information includes applicant information, the plan selection, and
financial assistance information, if applicable. The applicant must submit his or her premium
payment to finalize the enrollment and obtain health coverage. The marketplace is also required
to reconcile enrollment information with the QHP issuer each month.




Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)         49
                  APPENDIX D: OVERVIEW OF INTERNAL CONTROLS

INTERNAL CONTROLS IN THE GOVERNMENT 75

Internal controls are an integral component of an organization’s management that provides
reasonable, not absolute, assurance that the following objectives of an agency are being
achieved: (1) effectiveness and efficiency of operations, (2) reliability of financial reporting, and
(3) compliance with applicable laws and regulations.

Internal controls are composed of the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. They include the processes and procedures for
planning, organizing, directing, and controlling program operations and management’s system
for measuring, reporting, and monitoring program performance.

A deficiency in an internal control exists when the design, implementation, or operation of a
control does not allow management or personnel, in the normal course of performing their
assigned functions, to achieve control objectives and address related risks.

FIVE COMPONENTS OF INTERNAL CONTROL 76

Internal control consists of five interrelated components:

     •   Control Environment: The set of standards, processes, and structures that provide the
         basis for carrying out internal control across the organization. The control environment
         includes factors such as the organizational structure, assignment of authority and
         responsibilities, and ethical value.

     •   Risk Assessment: The process for identifying and assessing risks to achieve objectives,
         which is a basis for determining how the risks should be managed.

     •   Control Activities: The actions established through policies and procedures that help
         ensure management’s directives to mitigate risks to the achievement of objectives are
         carried out. These activities include authorizations and approvals, verifications, and
         reconciliations.

     •   Information and Communication: Management uses relevant and quality information
         to support functioning of other internal control components. Communication is the
         process of providing, sharing, and obtaining necessary information.

     •   Monitoring: Ongoing or separate evaluations or both to ascertain whether the
         components are present and functioning.

75
 Government Accountability Office’s Standards for Internal Control in the Federal Government: 1999 and
Government Auditing Standards: 2011 Revision.
76
  Committee of Sponsoring Organizations of the Treadway Commission: Internal Control – Integrated
Framework, Executive Summary (May 2013).



Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)                   50
                     APPENDIX E: AUDIT SCOPE AND METHODOLOGY

SCOPE

In response to the reporting requirement in the Continuing Appropriations Act, 2014, we
reviewed the internal controls that were in place at the Federal, California, and Connecticut
marketplaces from October to December 2013. We limited our review to those internal controls
related to (1) verifying identity of applicants, (2) determining applicants’ eligibility for
enrollment in QHPs and eligibility for insurance affordability programs, and (3) maintaining and
updating eligibility and enrollment data. These internal controls at each marketplace were not
necessarily the same. In our review, we focused on control activities, which is one of the five
components of internal controls as described in Appendix D.

To determine the effectiveness of the internal controls at each marketplace, we:

     •   tested controls by reviewing a sample of 45 applicants randomly selected at each
         marketplace from all applicants who were determined eligible to enroll in QHPs with
         coverage effective January 1, 2014, and

     •   performed other audit procedures, which included interviews with marketplace
         management, staff, and contractors; observation of staff performing tasks related to
         eligibility determinations; and reviews of supporting documentation and enrollment
         records.

Our attribute sampling approach is commonly used to test the effectiveness of internal controls
for compliance with laws, regulations, and policies. According to the Government
Accountability Office and President’s Council on Integrity and Efficiency’s 77 Financial Audit
Manual (July 2008), section 450, auditors may use a randomly selected sample of 45 items to
perform a compliance review. If all sample items are determined to be in compliance with
requirements, a conclusion that the controls are effective can be made. If one or more sample
items are determined not to be in compliance with requirements, a conclusion that the controls
are ineffective can be made. We tested the controls at each marketplace separately. Our
sampling methodology was limited to forming an opinion about whether the internal controls at
each marketplace were effective and was not designed to estimate the percentage of applicants
for whom each marketplace did not perform the required eligibility verifications.

For the 45 sample applicants for each marketplace, we reviewed supporting documentation to
evaluate whether the marketplace determined eligibility in accordance with Federal
requirements. During our fieldwork, questions arose concerning OIG’s access under the Internal
Revenue Code to Federal taxpayer information that IRS provides to marketplaces. We sought
authorization from IRS to access that information. Because the request was still pending when
we had completed our data collection, we did not review supporting documentation for certain
eligibility requirements, such as annual household income and family size, for the purpose of this
77
  The President’s Council on Integrity and Efficiency is now called the Council of the Inspectors General on
Integrity and Efficiency (Inspector General Act § 11).



Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)                         51
report. As a result, we could not evaluate whether each marketplace determined the 45 sample
applicants’ eligibility for advance premium tax credits and cost-sharing reductions according to
Federal requirements. 78

After our data collection period, IRS determined that OIG could receive Federal taxpayer
information maintained by the Federal marketplace under section 6103(l)(21)(C) of the Internal
Revenue Code for purposes of this report. OIG is consulting with IRS to determine our access to
Federal taxpayer information for additional work and planning that work accordingly.

Further, we did not determine whether information submitted by the 45 sample applicants at each
marketplace was inaccurate or fraudulent because we could not independently verify the
accuracy of data stored at other Federal agencies, e.g., IRS and SSA. Instead, we focused our
review on determining the effectiveness of internal controls for processing that data and
addressing inconsistencies in eligibility data when identified by the marketplace. This review
meets the mandate because internal controls are a type of safeguard or procedure that may
prevent the use of inaccurate or fraudulent information submitted by applicants who are enrolling
in QHPs. We also did not determine whether the 45 sample applicants at each marketplace were
properly determined eligible for enrollment in QHPs or for insurance affordability programs.

Because the open enrollment period ended after December 31, 2013, marketplaces may have
received new information, which could have changed applicants’ eligibility for enrollment in
QHPs and, when applicable, eligibility for insurance affordability programs. We did not review
the marketplaces’ redeterminations of applicants’ eligibility that resulted from verifications of
information provided by applicants after December 31, 2013.

Our review of internal controls, which included reviewing 45 sample applicants and performing
other audit procedures, would not necessarily have detected all internal control deficiencies
because internal controls provide only reasonable assurance that each marketplace complied with
Federal requirements.

We performed fieldwork from November 2013 to May 2014 at the CMS offices in Bethesda and
Baltimore, Maryland; at the Covered California office in Sacramento, California; and at the
Access Health CT office in Hartford, Connecticut. We also performed fieldwork at selected
marketplace contractor offices in various locations.

METHODOLOGY

To accomplish our objective, we:

     •   reviewed applicable Federal and State laws, regulations, and guidance;


78
  We were able to evaluate the Connecticut marketplace’s specific internal controls related to determining
applicants’ eligibility for advance premium tax credits and cost-sharing reductions according to Federal
requirements by performing other audit procedures. The marketplace provided us with additional data that enabled
us to evaluate the controls. The additional data did not contain Federal taxpayer information.



Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)                         52
    •   reviewed the Secretary of HHS’s report on the eligibility verifications for advance
        premium tax credits and cost-sharing reductions (submitted to Congress on
        December 31, 2013);

    •   assessed internal controls by:

            o interviewing officials from CMS, Covered California, and Access Health
              CT and their contractors and reviewing documentation provided by them
              to understand how the marketplaces (1) verify the identity of applicants,
              (2) verify information submitted on enrollment applications and make
              eligibility determinations, and (3) maintain and update eligibility and
              enrollment data;

            o observing marketplace staff performing tasks related to eligibility determinations
              at the three marketplaces; and

            o reviewing documents and records at the three marketplaces;

    •   obtained enrollment records from the Federal, California, and Connecticut marketplaces
        for applicants for enrollment in a QHP with coverage effective January 1, 2014,
        representing:

            o 1,112,411 applicants (Federal marketplace),

            o 453,401 applicants (California marketplace), and

            o 34,095 applicants (Connecticut marketplace);

    •   analyzed the enrollment records to obtain an understanding of information that was sent
        to QHP issuers;

    •   performed tests, such as matching records to the marketplaces’ eligibility or enrollment
        systems, to determine whether the enrollment data were reliable;

    •   performed testing of internal controls used by the Federal, California, and Connecticut
        marketplaces for eligibility determinations by:

            o randomly selecting 45 applicants who enrolled in a QHP effective
              January 1, 2014, at each marketplace using the OIG, Office of Audit Services,
              statistical software and

            o obtaining and reviewing eligibility data for each sample applicant to determine
              whether the marketplace performed the required eligibility verification and
              determination according to Federal requirements; and




Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)             53
    •   discussed the results of our review with CMS, Covered California, and Access Health CT
        officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)        54
           APPENDIX F: RESULTS OF TESTING OF CONTROLS FOR 45 SAMPLE
                  APPLICANTS AT EACH MARKETPLACE FOR THE
                      REQUIRED ELIGIBILITY VERIFICATIONS

Table 3 shows the number of sample applicants for whom the marketplaces did not perform the
required eligibility verifications.

             Table 3: Number of Sample Applicants for Whom Required Verifications
                     Were Not Performed According to Federal Requirements

                                                           Number of Sample Applicants
               Required Eligibility                  Federal       California    Connecticut
                    Verification                   Marketplace Marketplace Marketplace
          Social Security number                         1              0              0
          Citizenship                                    0              7              0
          Status as a national                           0              0              0
          Lawful presence                                0              1              0
          Incarceration status                           0              0              0
                                                    Accepted        Accepted       Accepted
          Residency                                attestation 79  attestation    attestation
                                                        Not
          Indian                                    reviewed 80         0              0
                                                               81
          Family size                              Not tested      Not tested     Not tested
          Annual household income                  Not tested      Not tested     Not tested
          Minimum essential coverage
          through employer-sponsored
          insurance                                Not reviewed                0                    0
          Minimum essential coverage
          through non-employer-
          sponsored insurance                      Not reviewed                0                    7
                                                        NOTE
          The table does not include the number of sample applicants for whom the
          eligibility data showed an inconsistency that was not resolved.




79
     The three marketplaces accepted self-attestation in accordance with Federal requirements.
80
  “Not reviewed” indicates that data were not available to OIG for the required eligibility verifications during our
review.
81
  “Not tested” indicates that we were unable to test the required eligibility verifications because we did not have
access to Federal taxpayer information during our fieldwork.



Selected Marketplaces’ Internal Controls Under the Affordable Care Act (A-09-14-01000)                                 55
                                        APPENDIX G: CMS COMMENTS 



   ,.....tcr..,
  t,J_             DEPARTMENT OF HEALTH & HUMAN SERVICES                                      Centers for Medicare & Medicaid Services


                                                                                              Administrator
                                                                                              Washington, DC 20201




                  Date: 	       May 27, 2014

                  To: 	          Gloria L. Jannon 

                                 Deputy Inspector General for Audit Services 


                  From:



                  Subject:        OIG Draft Report: Not All internal Controls Implemented by the Federal,
                                 California, and Connecticut Marketplaces Were Effective in Ensuring that
                                 Individuals Were Enrolled in Qualified Health Plans According to Federal
                                 Requirements (A-09-14-01000)

                  The Centers for Medicare & Medicaid Services (C MS) appreciates the opportunity to review and
                  comment on the Office of the Inspector General (OIG) draft report. CMS is committed to
                  verifying the eligibility of consumers who apply for enrollment in qualified health plans (QHPs)
                  through the Marketplace or for insurance affordability programs. As part ofthat effort, and as
                  noted in the OIG' s draft report, CMS has implemented several internal controls to prevent the
                  use of inaccurate or fraudulent information when determining eligibility of applicants for
                  enrollment or for insurance affordability programs. To date, there has been no evidence of an
                  applicant defrauding the federally-facilitated Marketplace (FFM) or a state-based Marketplace
                  (SBM) in order to unlawfully enroll in a QHP or take advantage of an insurance affordability
                  program for which the applicant is not eligible. Additionally, CMS notes that none ofthe OIG's
                  findings in this draft report showed that the FFM inappropriately determined eligibility for
                  enrollment in a QHP or for insurance affordability programs.

                  Besides the internal controls examined by the OIG in this report, CMS and its federal partners
                  have implemented other mechanisms to verifY an applicant's eli gibility both on the front-end and
                  the back-end ofthe enrollment process. On the front-end, CMS verifies the FFM applicant' s
                  eligibility data through multiple electronic data sources in accordance with Federal requirements.
                  SBMs are responsible for verifying their own applicants, using data available from the Hub and
                  any other data sources available to them as approved by the Secretary. The FFM has
                  successfully processed tens of millions of pieces ofdata through this process.

                  On the back-end, CMS works to expeditiously resolve inconsistencies between eligibility
                  information provided by application filers and the data obtained through the electronic data
                  sources to ensure that applicants receive the proper eligibility determination for participation in a
                  QHP through the Marketplace or for insurance affordability programs. It is important to note that
                  an inconsistenc y between eligibility information provided by an application filer and that

                                                                                                                           1




Se lee tedMarketplaces' Internal Controls Under the Affordable Care Act (A -09-I4-0I 000)                                                56
              contained in electronic data sources does not mean that the eligibility information attested to by
              the application filer is incorrect or that the applicant is ineligible.

              Additionally, at the end of the tax year, every tax filer, on whose behalf advance payments of the
              premium tax credits (APTC) were paid, must file a federal income tax return and claim the
              Premium Tax Credit. The Internal Revenue Service (IRS), through the tax filing process, will
              reconcile the difference between the APTC paid to the QHP issuer on the tax filer 's behalf and
              the actual amount ofthe premium tax credit that the tax filer was entitled to claim for the
              enrollee. Through these layered controls, CMS ensures that the provision of APTC meets federal
              eligibility requirements on the front-end, while IRS works to ensure that requirements are met on
              the back-end.

              OIG Recommendation
              The OIG recommends that CMS should ensure that it performs identity proofing of all
              applicants.

              CMS Response
              CMS concurs with this recommendation, and will continue to ensure that it performs identity
              proofing on all applicable FFM applicants (for example, we do not identity proof paper
              applications). However, CMS does not believe this recommendation needs to be included in the
              report. CMS maintains that it identity proofed the 45 sample applicants, and has provided OIG
              with additional supporting documentation showing that the applicants were identity proofed.

              CMS's robust identity proofing process is a key piece of our comprehensive privacy and security
              framework that protects sensitive federal and stitte data. Identity verification is used to provide
              assurance that application filers are who they say they are for purposes of applying for
              enrollment in a QHP through the Marketplace and for insurance affordability programs, and for
              obtaining and using eligibility data from third-party data sources. It is important to note that
              identity proofing is distinct from the eligibility verification process for determining eligibility for
              enrollment in a QHP through the Marketplace or for insurance affordability programs.

              OIG Recommendation
              The OIG recommends that CMS should ensure that Social Security numbers , when provided by
              applicants, are validated through the Social Security Administration.

              CMS Response
              CMS concurs with this recommendation and will work to ensure that Social Sec urity Numbers
              (SSNs), when provided by applicants, are validated through the Social Security Administration
              (SSA).

              As noted in the draft report, although the SSN was not validated thro ugh the SSA in one selected
              case for an FFM applicant, this does not necessarily mean that the Marketplace improperly
              determined eligibility for enrollment in a QHP through the Marketplace or for insurance
              affordability programs. The Marketplace application asks application filers to prov ide an
              applicant's SSN as a tool for verifying eligibility data, such as citizenship or lawful presence,
              and income, against the electronic data sources.


                                                                                                                    2




SeleetedMarketplaces' Internal Controls Under the Affordable Care Act (A -09-14-0I 000)                                 57
              An applicant's SSN is used to verify citizenship status with the SSA and, if applicable, lawful
              presence with the Department of Homeland Security (DHS). With respect to citizenship, if the
              attestation of an applicant's citizenship cannot be verified by SSA or DHS using the applicant's
              SSN, then an inconsistency is generated. When an inconsistency regarding citizenship is
              generated, the applicant must provide the Marketplace with appropriate documentation, or
              otherwise resolve the inconsistency, such as by contacting SSA to correct that agency's records.

              For applicants for APTC and Cost-Sharing Reduction (CSR), the SSN is also used to verify
              income, by comparing the eligibility information provided by the application filer to data
              contained in the records of the IRS for the most recent taxable year on file and in the records of
              the SSA. In instances where income cannot be verified through the use of IRS and SSA data
              (either because the data does not match or because it was not available), then the FFM checks
              current income sources (CMS has a contract with Equifax Workforce Solutions to provide
              current wage data, as reported to Equifax by employers). An inconsistency is then generated if
              the income cannot be verified through the use of current income data sources.

              OIG Recommendation
              The OIG recommends that CMS fully develop system functionality to resolve all inconsistencies
              in eligibility data.

              CMS Response
              CMS concurs with this recommendation. CMS is working to expeditiously resolve
              inconsistencies between eligibility information provided by application filers and the data
              obtained through the electronic data sources to ensure that applicants receive proper eligibility
              determinations for enrollment in a QHP through the Marketplace and for insurance affordability
              programs.

              As the OIG report noted, during the time of the OIG' s review, the FFM was able to resolve
              inconsistencies related to SSNs, non-employer sponsored minimum essential coverage,
              incarceration status, and whether the applicant is a member ofa federally recognized tribe or a
              shareholder of an Alaska Native Corporation. The FFM continues to resolve inconsistencies
              within these categories, and has found that, so far, the vast majority of the cases have been
              reconciled positively by verifying the eligibility information provided by the application filer
              with the supporting documentation provided through the inconsistency process. This aligns with
              the requirement that application filers must attest, under penalty of peijury, that they are not
              providing untrue, false, or fraudulent information as part of the application for coverage.

               Additionally, since the drafting of this report, the FFM now has in place an interim manual
               process that allows it to reconcile inconsistencies in the remaining categories, which are
               citizenship, status as a U.S. national, lawful presence, income, and employer-sponsored
               minimum essential coverage. Ofcourse, this depends on having the appropriate supporting
               documents submitted by the consumer. Now that open enrollment is over, CMS has prioritized
               the development and implementation of full automated functionality. CMS plans to replace the
               interim manual process for clearing these inconsistencies categories with the automated
               functionality later this summer. CMS expects to have a similar experience as the seven SBMs


                                                                                                                   3




SeleetedMarketplaces' Interna l Controls Under the Affordable Care A ct (A -09-14-0I 000)                              58
              that reported that, with full automated functionality, they resolved inconsistencies \vithout
              unnecessary delay and that the inconsistency process ran smoothly with minimal problems. The
              automated functionality for the FFM to resolve inconsistencies was deprioritized during the
              initial open enrollment period in order to focus resources necessary in that limited window for
              consumer enrollment.

              The FFM continues to resolve inconsistencies every day, and CMS is working with consumers to
              encourage them to provide the supporting documentation needed to resolve their inconsistencies.
              Most applicants with inconsistencies are still within the standard 90-day window to send the
              FFM supporting documentation to resolve their inconsistencies. Additionally, the Affordable
              Care Act allows the Secretary to extend the 90-day inconsistency period for applications for
              coverage for 2014.

              OIG Recommendation
              The OIG recommends that CMS ensure that the system functionality is fully developed to allow
              enrollees to report life changes affecting eligibility for QHPs and, when applicable, eligibility for
              insurance affordability programs

              CMS Response
              CMS concurs with this recommendation, but does not believe this recommendation needs to be
              included in the report. CMS has already implemented the system functionality to allow enrollees
              to report life changes affecting eligibility for enrollment in a QHP through the Marketplace or for
              insurance affordability programs, and has prov ided the OIG with additional supporting
              documentation showing that functionality. Additionally, the OIG could visit HealthCare.gov to
              view the tool that allows an enrollee to report a change in income or household status that affects
              eligibility for income affordability programs. Including this recommendatio n in this report could
              confuse the public about what tools are available. CMS is willing to work with the 010 to
              demonstrate this functionality, if necessary.

              OIG Recommendation
              The OIG recommends that CMS redetermine, if necessary, the eligibility of the sample
              applicants for whom we determined that verifications were not performed according to Federal
              requirements.

              CMS Response
              CMS concurs with this recommendation. The only FFM sample applicant whom the OIG
              singled out was the applicant whose SSN and attestation of citizenship was not successfully
              verified against SSA records. This did not impact the veracity of the applicant's eligibility
              determination. The Marketplace application asks application filers to provide an applicant's
              SSN only as a tool for verifying eligibility data, such as citizenship o r lawful presence, and
              income, against the electronic data sources.

              CMS examined the application in question. The applicant is in an inconsistency period for both
              citizenship and income. Accordingly, for this applicant, CMS will follow the process for
              resolving inconsistencies, which will result in a final eligibility determination that will take into
              account whether the applicant sufficiently establishes the relevant eligibility criteria.


                                                                                                                      4




SeleetedMarketplaces' Internal Controls Under the Affordable Care Act (A -09-I 4-0I 000)                                  59
              OIG Recommendation
              The OlG recommends the CMS work with Covered California and Access Health CT to
              implement the OIG' s recommendations, which address deficiencies identified at the California
              and Connecticut Marketplaces.

              CMS Response
              CMS concurs with this recommendation. SBMs are required to comply with all applicable legal
              requirements related to eligibility and enrollment..CMS will continue to monitor SBMs through
              technical assistance and financial assessments. CMS will work with the California and
              Connecticut Marketplaces to address the deficiencies identified in this draft OIG report.

              CMS is currently monitoring Connecticut's compliance for identity proofing requirements and
              eligibility determination requirements. The identity proofing issue in Connecticut impacts only
              those application filers completing an application through the call center who do not
              subsequently access the application online. Connecticut officials have reported to CMS that this
              lack of system functionality is being addressed. Additionally, Connecticut has informed CMS
              that it has implemented system corrections for the eligibility issues identified in the draft OIG
              report, and has contacted any affected applicants to correct their eligibility determinations.
              Connecticut will continue to identify and resolve system errors and plans to develop a Quality
              Assurance Program for its eligibility processes.

              CMS is currently monitoring California's compliance for identity proofing requirements.
              Although California did not implement the Federal Remote Identity Proofing Solution to conduct
              online identity proofing, California did perform identity proofing of application filers via
              electronic signature under penalty of perjury, in-person proof of identity, or recorded attestation
              ofconsumer's identity for phone applications, as a contingency for plan year 2014. California
              officials have committed to implementing the Federal Remote Identity Proofing Solution for plan
              year 2015.

              OIG Noted Issues Outside the Scope of the Review
              'lbe OIG noted that the Federal, California, and Connecticut Marketplaces verify residency by
              accepting applicants' attestation of residency and family size . .

              CMS Response
              CMS does not believe that this needs to be a noted issue. The FFM and state-based
              Marketplaces follow the federal requirements regarding verifying an applicant's attestation of
              residency and family size. There are not comprehensive, national electronic data sources for
              residency verification or for family size available to the FFM.

              OIG Noted Issues Outside the Scope of the Review
              The OIG noted that documentation was not provided by the Federal Marketplace to support that
              required monthly reconciliations for Qualified Health Plans were performed.




                                                                                                                  5




SeleetedMarketplaces' Internal Controls Under the Affordable Care Act (A -09-I 4-0I 000)                              60
              CMS Response
              As CMS has said, the automated payment and reporting system between issuers and CMS is not
              complete or fully tested. CMS has an interim process for paying issuers that are owed
              Marketplace financial assistan.c e in the form of APTC or CSR payments. Under this interim
              process, issuers who are owed payments submit initial, aggregate information on a monthly basis
              in order to receive Marketplace financial assistance payments. This data includes preliminary
              total effectuated enrollments, enrollees receiving Marketplace financial assistance, and the
              estimated amount owed to the issuer, all of which are subject to change and unconfirmed by
              CMS. On a monthly basis, CMS compares the effectuated enrollment counts submitted by the
              issuers to the enrollment counts generated from the FFM for individual market medical issuers.
              These data and payments will be further reconciled once the automated payment and reporting
              system is in place.




                                                                                                            6




SeleetedMarketplaces' Internal Controls Under the Affordable Care Act (A -09-I 4-0I 000)                        6I
                      APPENDIX H: COVERED CALIFORNIA COMMENTS 





                                COVERED
                                 CALIFORNIA


             May 29,2014

             Lori A. Ahlstrand
             Office of Inspector General
             Office of Audit Services, Region IX
             90- 7th Street, Suite 3-650
             San Francisco, CA 94103

             Re: Report A-09-14-01000- Audit of ACA Enrollment Safeguards Mandate

             Dear Ms. Ahlstrand:

             Covered California has reviewed the U.S. Department of Health and Human Services, Office of
             Inspector General (OIG) draft report titled Not All Internal Contro ls Implemented by the
             (redacted) California, (redacted] Marketplaces Were Effective in Ensuring That Individuals Were
             Enrolled in Qualified Health Plans According to Federal Requirements dated May 14, 2014.

             In responding to the OIG's draft report, we note the OIG's findings are based on an attribute
             sample of 45 enrollments for the 1.4 million who enrolled through Covered California. Further,
             this sample was taken very early in the first open enrollment period and improvements have
             been ongoing to ensure program integrity. In addition, every procedure that Covered California
             has implemented was reviewed and approved by the Centers for Medicare and Medicaid
             Services (CMS), during regular and ongoing Design Review Evidence and Criteria for
             Assessments ( Design Reviews). Systems and processes have been, and continue to be
             refined and improved.

             Covered California's IT systems and operational processes a re designed to ensure all eligible
             consumers receive coverage through Covered California's Exchange. Covered Ca lifornia's IT
             system (CaiHEERS) and operational processes are large and complex and ongoing refinements
             are part of our process of continuous improvement. Throughout the first open enrollment
             process and into the special enrollment period, Covered California closely monitored and
             conducted oversight of existing early stage activities, staff development training and internal
             policies and procedures. While Covered California does not entirely agree with the OIG
             findings, we appreciate OIG's offer to submit comments to the report. Comments are submitted
             for each finding and recommendation.

             Sincerely,




             Peter V. Lee
             Executive Director


             Attachment: OIG Audit #A-09-14-01 000- ACA Enrollment Safeguards Mandate

             COVERED CALIFORNIA"'                1601 EXPOSITION BOULEVARD, SACRAMENTO, CA 95816                            WWW.COVEREDCA.COM

             BOARD MEMBERS Diana 5 . Dooley, Chair   Ktmbe~y   Belshe   Paul Fearer   Susan Kennedy   Robert Ro.,., MD   EXEC DIRECTOR Peler V. Lee




Selected .Marketplaces' Internal Controls Under the Affordable Care Act (A-09-14-01000)                                                               62
                                        Covered California Comments on 

                                           Office of Inspector General 

                         Audit of Affordable Care Act Enrollment Safeguards Mandate 



                                                  May 28,2014 




             Per the Office of Inspector General (OIG) request for comments, Covered California
             respectfully submits the following:

             Covered California 's IT systems and operational processes are designed to ensure all
             e ligible consumers receive coverage through Covered California 's Exchange. Covered
             Californ ia's IT system (CaiHEERS) and operationa l processes are large and complex
             and ongoing refinements are part of our process of continuous improvement
             Throughout the first open enrollment process and into the special enrollment period ,
             Covered Ca lifornia close ly monitored and conducted oversight of existing early stage
             activities, staff development training and internal policies and procedures.

             The OIG's findings are based on an attribute sample of 45 enrollments for the 1.4
             million who enrolled through Covered Californ ia. Further, the sample was taken very
             early in the first open enrollment period. Every business process and system procedure
             that Covered California implemented was reviewed and approved by the Centers for
             Medicare and Medicaid Services (CMS), via ongoing and numerous Design Reviews.
             Systems and processes have been, and continue to be, refined and improved. In
             particular, process and system refinements occurred during the early months of the
             open enrollment period, and improvements, are ongoing.

             Covered California offers the following comments for each the six findings and eight
             recommendations.



                                     Offi ce of Inspector General Fin ding s:

             O IG Findin g 1: Identity proofing of applicants was not always performed.

                Covered Californ ia does not concur with this finding.

                Covered Californ ia has utilized a federally approved identity proofing process since
                the opening of the Exchange on October 1, 2013. Covered Californ ia plans to




Selected .Marketplaces' Internal Controls Under the Affordable Care Act (A-09-14-01000)                 63
                implement a remote identity proofing (R IDP) third party serv ice , and will do to so
                prior to November 15, 2014 (open enrollment).

                Marketp laces must establish and implement operational, techn ical, administrative ,
                and physical safeguards to ensure the confidentiality, integrity, and availab ility of
                persona lly Identifiable information that they create , collect, use , or disclose and to
                ensure that personally identifiable information is used by or disclosed to on ly those
                authorized to receive or v iew it, per 45 CFR 155.260 (a)(4). At the same time, under
                the CFR , Exchanges have an obl igation to confirm the identity of a ll app licants
                (identify proofing). Beginning in January 2013, Covered California engaged in
                extensive dialogue with CMS regarding appropriate identity proofing processes.

                In June 2013, CMS provided Identify Proofing Guidance indicating that Exchanges
                would use a third party RIDP. Covered Californ ia discussed the guidance with CMS,
                as the policy designed and prepared to be implemented by California already met
                identity proofing regu lations. With CMS approval, Covered California implemented
                the following identify proofing process for the first open enrollment period , which
                includes in-person and remote identity proofing:

                  a. 	 Paper: The consumer provides a signature attest ing to his/her identify under
                       penalty of perjury.
                  b. 	Online : The consumer provides an electronic signature attesting to his/her
                       identity under penalty of perjury.
                  c. 	 In-Person: In-person enrollment assistance personnel must verify appl icant's
                       identities.
                  d. 	 Phone : The consumer provides a recorded verbal attestation that the 

                       consumer is who he/she says he/she is under pena lty of perjury. 


                CMS authorized Covered California to implement RIDP in 2014 after the close of the
                initial open enrollment.

             OIG Finding 2: Informat ion from p aper ap plicatio ns was not always entered
             cor rectly into enro llment s ystem.

                Covered Californ ia concurs wit h this findi ng in that all data entry is subject to key­
                data error.

                During the sample period, Covered Californ ia had fully trained all data-entry staff on
                protocols for data entry, and provided job aids to promote process accuracy.



             OIG Audit#A·09·14-01000
             ACA Enrollment Safeguards Mandate
                                                                                                       Page2




Selected .Marketplaces' Internal Controls Under the Affordable Care Act (A-09-14-01000)                        64
                Covered Californ ia had a Quality Assurance/Quality Control (QA/ QC) processes in
                place that included sampling, oversight, tracking and trending and continually
                updated job aids for several operational areas, but not in the area of data entry for
                paper applications. Covered California is adding a similar QA/QC process specific
                to the paper app lication process. Covered California continues to improve its
                QA/ QC processes to ensure information is as accurately entered for paper
                applications as possible.

             OIG Finding 3 : Citizens h i p was not always ve rified through the Department of
             Homeland Security.

                 Covered California does not concur with this finding .

                CMS approved Covered California' s citizenship verification process during the
                Design Reviews. Specifica lly, in Covered Californ ia's verification plan, we use the
                Social Security Administration data to electronically verify a consumer's U.S.
                citizenship attestation for elig ibility. During the early months of open enrollment, the
                Federal Services Data Hub (data hub) was frequently offline, which impacted
                Covered Californ ia's ability to verify some cases as noted in the audit. However,
                Covered Californ ia's verification process supports consumers that cannot be verified
                through the data hub in that they can self-attest, under penalty of perjury, as to being
                a U.S. citizen, a national or lawfully present. In these instances, they are considered
                conditionally eligible to enroll under the 90-day reasonable opportunity period.

                CaiHEERS now has the capability to discern when the data hub is offline and
                accepts an attestation in lieu of immediate verification through the data hub. In
                these instances, CaiHEERS captures this group of consumers and automatically re­
                runs verifications through the data hub when the data hub is back on line , usually the
                next day. If it's discovered that a consumer did not meet eligibility criteria, the
                consumer receives a CaiHEERS generated notice with contact and resolution
                options.

             OIG Finding 4: L awful presence was not always verified through t he Department
             o f Hom el and Sec urity.

                Covered Californ ia consistently verifies lawful presence with the Department of
                Homeland Security (DHS). One out of the 45 sampled applicants' verification of
                lawful presence was not apparent in the data field of the reco rd due to some form of
                technical error. In th is particular case , where the resu lt was not stored in the record ,
                Covered California is conducting an analysis to determine if this technical error



             OIG Audit # A-0 9-14-01000
             ACA Enrollment Safeguards Mandate
                                                                                                      Page3




Selected .Marketplaces' Internal Controls Under the Affordable Care Act (A-09-14-01000)                        65
                resu lted in any cases of lawful presence not being verified . Until that analysis is
                complete , Covered California cannot concur or disagree with the finding.

             OIG Fin ding 5 : Inconsistencies in eligibility data were not always resolved.

                Covered California concurs with this finding in that Covered California relies on
                consumers' attestation, under penalty of perjury, to conduct eligibility determinations,
                and at of the time of the audit Covered California had not completed all verifications
                subject to review. In the event the attested information cannot be electronically
                verified through Federal and/or state electronic data resources, the consumers are
                given 90 days to provide paper source documents to demonstrate el igibility.

                The processing/review of consumers' supporting documentation is the point at which
                a determination is made as to whether or not the consumer legitimately meets
                eligibility standards. If the consumer demonstrates eligibility, he/she remains
                enrolled. If, the documentation submitted does not support eligibility, the consumer
                does not qualify and would enter the disenrollment process, which includes
                reimbursement of any Federal subsidies they may have received .

                Covered Californ ia has a high vo lume of pend ing paper verifications that must be
                linked to the individual's case number. Staff is diligently working to conduct that
                reconciliation during the 90-day reasonable opportunity period and in some cases
                that review is extending past 90 days. However, Covered California won't begin the
                disenrollment process until all of the associated documents can be sorted, reviewed
                and processed according to business procedures.

             OIG Fin ding 6 : Eligibility data we re not always properly m aintained.

                Covered Californ ia concurs that some interna l data tables within CaiHEERS were
                inconsistent with each other.

                While various data elements displayed inconsistently, Covered California does not
                believe the inconsistencies within the internal tables degrade the accuracy of the
                eligibility process and/or outcomes.

                During the early open enro llment period, five flaws were discovered within the
                CaiHEERS system relating to how data is stored in different data tables. Four of
                those defects were resolved in March and Apri12014 and the remaining flaw is on
                schedule for resolution in early June . The repair of these five system defects will
                reso lve data d iscrepancies. To the extent the data flaws would potentially impact



             OIG Audit #A-09-14-01000
             ACA Enrollment Safeguards Mandate
                                                                                                    Page4




Selected .Marketplaces' Internal Controls Under the Affordable Care Act (A-09-14-01000)                     66
                eligibility, Covered California wou ld conduct another eligibility determination for
                impacted enrollments.



                             OIG RECOMME NDATIONS for COVERED CALIFORNIA

             Covered Ca lifornia was responsible for quickly designing a very large and complex IT
             system and operational processes in which we anticipated ongoing refinements would
             be needed and planned accordingly. Throughout the open en rollment process and into
             the special enrollment period, Covered Ca lifornia close ly monitored and conducted
             oversight of existing early stage QA/QC activities, staff development training and
             internal policies and procedures. Covered Cal ifornia recognizes that all the
             aforementioned activities would need ongoing refinement as Covered Cal ifornia
             became fully operational.

             OIG 's recommendations mirror Covered California's expected quality improvements
             with t he system rollout .

             OIG Recommendation 1: Develop and implement a procedure to ensure that it
             performs identity pro ofing of all applicants.

             Covered California has utilized a federally approved identity proofing process since the
             opening of the Exchange . Covered California plans to implement a remote identity
             proofing third party service (RIDP), and will do to so prior to November 15, 2014 (open
             enrollment).

             OIG Recommendation 2: Implement a procedure to ensure that all information
             from applic ants' paper applications is correctly entered into CaiHEERS.

             Covered California continues to refine training and procedures, and will be bolstering its
             QAIQC process for all staff involved in the data-entry of paper applications to improve
             accuracy.

             OIG Recommendation 3: Des ign a proce ss to verify applicants' citizenship
             th rough DH S w hen required by Federa l regulations.

             Covered California continues to use the data hub and remains in compliance with
             Federal guidance.




             OIG Audit #A-09-14-01000
             ACA Enrollment Safeguards Mandate
                                                                                                       PageS




Selected .Marketplaces' Internal Controls Under the Affordable Care Act (A-09-14-01000)                        67
             OIG Recommendation 4: Ensure that applicants' lawful presence is ve rified
             through DHS.

             Covered California consistently verifies lawful presence with DHS. Covered California
             Is still researching a single anomalous case identified in the audit to determine the type
             and source of the apparent technical error.

             OIG Recommendation 5: Ensure that it resolves all inconsistencies in eligibility
             data.

             Due to the high volume of pending paper verifications that must be linked to the
             individual's case number, Covered California is diligently working to process the volume
             of paper documents submitted during the 90-day reasonable opportunity period.
             Covered California won't begin the disenrol/ment process until all of the associated
             documents can be sorted, reviewed and process according to business procedures.



             OIG Recommendation 6: Ensure that it maintains documentation to support the
             resolution of inconsistencies.

                In so far as this recommendation relates to the finding regarding Covered
                California's processes for confirming eligibility information that is submitted to
                validate consumer's self-attestation, Covered California agrees and has processes
                in place to support its ultimate decisions.

             OIG Recommendation 7: Correct the system defects in CaiHEERS to ensure that
             eligibility data are complete, accurate, and up to date.

             As stated earlier in the response to 0/G Finding #6, the four system defects have
             already been resolved and the remaining ffaw is on schedule for resolution in early June
             (subsequent to the deadline for comments).




             OIG Audit #A-09-14-01000
             ACA Enrollment Safeguards Mandate
                                                                                                   Page 6




Selected .Marketplaces' Internal Controls Under the Affordable Care Act (A-09-14-01000)                     68
             OIG Recommendation 8: Covered California re-determine, if necessary, the
             eligibility of th e sampl e ap plica nts for whom we determ ined that ve rification s
             were not performed according to Federal requirements.

             To the extent any data flaws would potentially impact eligibility, Covered California
             would conduct another eligibility determination for enrollments.




             OIG Audit#A-09-14-01000
             ACA Enrollment Safeguards Mandate
                                                                                                     Page 7




Selected .Marketplaces' Internal Controls Under the Affordable Care Act (A-09-14-01000)                       69
                            APPENDIX 1: ACCESS HEALTH CT COMMENTS 



                                              ........... ...... ... 

             access health CT ~!-:-.
                                               .           ~ ·. ·



             Connecticut's Health Insurance Marketplace



             June 2, 2014

             Lori A. Ahlstrand
             Regional Inspector General for Audit Services
             Office of Aud'1t Services, Region IX
             90- 7th Street
             Suite 3-650
             San Francisco, CA 94103


             RE: 	 Draft Report Number: A-09-14-01000, " Not all internal controls implemented by the .... Connecticut
                   Marketplaces were effective ·In ensuring that individuals were enrolled in Qualified Health Plans according to
                   Federal requirements"

             Dear Ms. Ahlstrand:

             This letter provides Connecticut's response to your May 2014 draft report# A-09-14-01000, as refe renced above.
             I wish to thank you and your staff for the thorough eligibility and enrol lment review completed on Access Health
             CT, Connecticut's state based marketplace. The work by you and your staff validated eligi bi lity and enrol lment
             ·Issues we had already addressed or had already identified and were addressing. Further, we appreciated your
             ·Identification of one additional finding we had not yet encountered. The examination and analysis continues i n t he
             post open enrollment period and we remain vigilant in resolving issues as they are identified.

             Because ofthe ongoing work ofAccess Health CT pe rsonnel, mitigating actions are undertaken to add ress any
             ·Issues identifi ed unti l a system enhancement is implemented or a business process ·Is developed. The responses to
             OIG recommendations and findings that follow reflect mitigating actions and/or resol ution of'1ssues, as
             appropriate. Overall, Access Health CT concurs with 3 of the 5 recommendations OIG has made for Connecticut i n
             this report, and has provided rationales for the remaining 2 non concurrences which are explained in t he attached
              responses.

             However, given our examination and analysis process, we believe that these efforts ensured all individ uals enrol led
             ·In a Qualified Health Plan i n Connecticut by Access Health CTwere done so in accordance with Federal
             requirements.

             Please direct any questions regard ing this report to M r. St eve Sigal, Chief Financial Officer for AHCT. He can be
             reached at {860)757-5314 or steven.sigal@ct.gov. Thank yo u agai n for your assistance and support.




             Sincerely,




             /Kevin J. Counihan/
             Chief Executive Officer
             Access Health CT

             280 Trumbull Street, 15th Floor
             Hartford, CT 06103
             {P) 860-757-5302 {F) 860-757-5330




Selected Marketplaces' Internal Controls Under the Affordable Care Act (A -09-14-01000)                                              70
             AHCT Response to Report# A-09- 14-01000 Recommendations




             Finding 1: AHCT Did Not Al ways Perform Identity Proofing of Phone Applicants

             Condition:

             Identi ty proofing helps to ensu re t he privacy of persona l information and prevents an unauthorized individual from
             in itiating an online application.

             For one of the th ree sample applican ts who applied by phone w ithin our sample of 45, AHCT did not perform
             identity proofing. The applicant completed an application by p hone to en roll in a QHP and never accessed t heir
             ap plication through AccessHealthCT.com. Although AHCT performed identity p roofing of ap p licants who applied
             for QHPs using AccessHea l thCT.com, it did not do so for app licant s w ho app lied by phone through the call center.
             However, if a phone applicant later accessed h is or her applica tion th rough AccessHealthCT.com, the marketp lace
             performed id enti ty p roo fing a t that time.

             Cri teria :

             Mar ketplaces must establish and implement operational, technical, administrative, and physical safeguards to
             ensure the confid entiality, int egrity, and availabil ity of persona lly identifiable information th at they create, collect,
             use, or disclose and to ensure that personally identifiab le information is used by or disclosed to only t hose
             authorized to receive or view it (45 CFR § 155. 260(a)(4)).

             Accord ing to CMS's Guidance Regard ing Identity Proofing for the Marketp lace, Medicaid, and CHIP, and th e
             Disclosure o f Certain Data Obtained th rough the Data Services Hub, dated June 11, 2013, before a marketplace
             accepts an online or telephone application for enrollmen t in a QHP, it m ust conduct identity proofing sufficient to
             provide assurance that only the appropriate individual h as access to restricted data. The guidance exp lains that
             identity proofing involves the (1) collection of core attrib utes, incl uding the applican t's name, birth date, Social
             Security n um ber (optional), address, phone n umber, and email ad dress; (2) validation of core attributes w ith a
             trusted data source; and (3) for some applicants, collection and val idation o f r esponses to questi ons about t he
             ap plicant's personal history, e.g., the n ames o f current and past employers. CMS allo ws States to use Federal
             identity-proofing services.

             Effect:

             AHCT' s internal contr ols were no t effective in ensu ring that ap plicants who ap plied by p hone we re enrolled
             identity p roofed according to Federal requirements.

             OIG Recommendation :

             Develop and implement a procedu re to ensure that it performs identity p roofing of phone applica nts.

             AHCT Response:

             AHCT does not concur w ith the Effect or OIG Recommendation that internal controls were not effective, and as a
             result, also does no t concur with t he find ing. A new phone applican t's identity is validated by the data hu b once
             the ap plication has been submit ted but before i t's transferr ed to t he carrier. Any discrepancies require paper
             verification, wh ich are gener ated automatically through the eligibility system (these include identity, as wel l as
             citizenship, income, im migration status etc.) and are mailed to t he client with in 24 hours. This verificati on p rocess
             (45 CFR § 155.3 15(f)(4)) acts as a mitigating contr ol. If a consumer calls back after an initial applicat ion, identity
                                                                           2




Selected .Marketplaces' Internal Controls Under the Affordable Care Act (A-09-14-01000)                                                       71
             AHCT Response to Report# A-09-14-01000 Recommendations



             questions are asked by call center representatives to confirm that t hey should be granted access to t he account. As
             a furt her control, additional data sources at the Connecticut Department of Labor a re going to be available p rio r to
             t he next ope n enrollment period to va lidate identity for applicants that seek to participate in a n affordab ility
             program .



             Finding 2: AHCT Did Not Verify Citizenship through the Department of Homeland (DHS) Security When Social
             Security Administration (SSA) Information Was Inconsistent with Application Information



             Condition:

             AHCT did no t always verify applicants' citizenship th rough DHS when SSA could not verify citizenship. Without
             verifying citizenship in this manner, a marketplace may place a n applica nt in an inconsiste ncy pe riod even though
             the applicant may be a U.S. citizen.

             For 1 of 42 sample a p plicants who attested that they were U.S. citizens, AHCT did not verify citizenship through
             DHS when the SSA system indicated that t he applicant was not a U.S. citize n. AHCT placed the applicant in a n
             inconsistency period when it should have verified citizenship through DHS according to Federal requirements.
             AHCT provided satisfactory documentation submitted by the applicant during the inconsistency period indicating
             that the a pp licant was a U.S. citizen.

             Criteria:

             Ma rketplaces must verify an applicant's citizenship through SSA. lf SSA can not verify a n applicant's citizenship, the
             market place must verify citizensh ip th rough DHS. If the marketplace cannot ve rify c itize nship through DHS, the
             marketplace must make a reasonable effort to identify and add ress the causes of the inconsistency. If it is unable
             to resolve the inconsistency, the marketplace must notify the applicant a nd genera lly provide the a pplicant with 90
             days to present sa tisfactory documentary evidence of citizenship (ACA § 1411(c)(2} and 45 CFR § 155.315(c}(3}}.
             During the inconsistency period, an a pplicant who is otherwise q ualified is p rovided conditio nal eligibil ity to enroll
             in a QHP a nd for insurance affordability programs (45 CFR § 155.3 15(f)(4}}.

             Effect:

             AHCT' s internal controls were no t effective in ensu ring that a pp licants who could not be ve rified as citizens by SSA
             were first verified by DHS prior to placing t he applicant in a n inconsistency pe riod. Without verifying citizenship in
             this manner, AHCT may place applica nt s in a n inconsistency period unnecessarily c reating syst em and p rocess
             inefficie ncies.

             OIG Recommendation:

             Design a process to verify applica n ts' citizenship through the DHS when required by Federal regulations


             AHCT Response:

             AHCT does not concur with the OIG finding. AHCT does have a process and has consistently employed that process
             to verify a pplica nts' naturalized ci tizenship s tatus th rough the Depa rtment of Home land Security (DHS}. However,
             DHS is una ble to verify US citize nsh ip when the citizen is US born not naturalized. Since this information is not

                                                                         3




Selected .Marketplaces' Internal Controls Under the Affordable Care Act (A-09-14-01000)                                                    72
             AHa Response to Report# A-09-14-01000 Recommendations



             available in their database, AHCT can only verify "legally present" and "naturalized citizenship" through DHS. Since
             t he DHS database cannot verify US born cit izens, AHCT could not use bo th the SSA and DHS in the scenario
             outl ined by t he OIG finding. Additionally, the 90 day inconsistency period (4S CFR § 155.315(f)(4)) acts as a
             mitigating control to allow an appl icant to verify their information. The 1 exception noted in the finding was
             verified through the paper verification process in accordance with federal regulations.


             Finding 3: AHCT Improper ly Determined Applica nts Who Were Medicaid-Eligible or Did Not Select Silver-Level
             Health Plans To Be Eligible for Insurance Affordability Programs

             Condition:

             AHCT determined applicants to be eligible for insurance affordability programs when they were not e ligible . They
             were not eligib le because they were Medicaid-eligible o r had not selected a silver-level QHP.

             AHCT improperly determined Medicaid-eligible applicants to be eligible for advance premium tax credits and
             applicants who did not select silver-level QHPs t o be eligible for cost-sharing reductions. Of the 34,095 applicants
             whose e ligibility informat ion was transmitted to QHP issuers, 223 Medica id-eligible applicants who selected QHPs
             instead of Medicaid were determined eligible for advance premium tax cred its, and 619 applicants who did not
             select silve r-level QHPs were determined eligible for cost-sharing reductions.

             Criteria:

             An applicant eligible for non-employer-sponsored insurance, including Medicaid, is not eligible fo r the advance
             premium tax credit (45 CF R §§ 155.20 and 155.305 and 26 U.S.C. § 5000A(f)). Further, an applica nt requesting
             cost-shari ng red uctions must select a silver-level QHP (ACA § 1402(b)(l) and 45 CFR § l55.305(g)(l)(ii)).

             Effect:

             AHCrs internal controls were no t effective in ensuring that Medicaid-eligible applicants were not determined to
             be eligible for advance premium tax credits and applicants who did not select silver-level QHPs were not
             determined to be eligible for cost-sharing reductions.

             OIG Recommendation:

             Ensure the exchange corrects t he system programming errors related to applicants' eligibility for advance premium
             tax credits and cost sharing reductions.

             AHCT Response:

             AHCT concurs with the OIG recommendation. Soon after open enrollment bega n, AHCT determined that the
             e nrollment system was dete rmining some applicants eligible for both APTCs and Med icaid when application
             cha nges were made after it was submitted. This system issue was corrected on December 21, 2013 . With
             respect to cost sharing reductions being given to individuals who had not select ed a silver plan, t his issue was
             brought to light as a result of the audit. After reviewing the issue it was determined that consumers were not
             impacted, since the data was not coded by the carriers to accept CSR's on catastroph ic plans. Controls have
             since been put in place to e nsure that only eligible applicants receive CSRs on t he 834. Additional controls
             include periodic reviews of transactions, and updated testing scripts to review rates. Since the go-live testing did
             not discover this issue with the existing test script s, revised APTC and CSR test scripts have been added to
             regression testing.

                                                                       4




Selected .Marketplaces' Internal Controls Under the Affordable Care Act (A-09-14-01000)                                              73
             AHa Response to Report# A-09-14-01000 Recommendations




             Finding 4: AHCT Did Not Always Store Eligibility Verification Data Confirming Ineligibility for Non-Employer­
             Sponsored Insurance

             Condition:

             AHCT did no t always properly mainta in applicants' eligibility data. If a marketplace does not maintain all eligibility
             data, it cannot sufficiently demonstrate that applicants are eligible for enrollment in QHPs and, when applicable,
             e ligibl e for insurance affordability programs.

             For 7 of the 31 sample applicants who applied for financial assistance through insurance affordability programs,
             AHCT could not provide eligibility verification data confirming that the applicants were ineligible for minimum
             essential coverage through non employer-sponsored insurance. However, AHCT performed the verification and
             demonstrated that it successfully received verification data through t he Data Hub .

             Criteria:

             Marketplaces must mainta in and ensure that their contra cto rs, subcontractors, and agents maintain for 10 years
             documents and records that are sufficient to enable HHS or its designees to evaluate the marketplaces' compliance
             with Federal standa rds (45 CF R § 155.1210(a)). The records must include data and records related to the
             market places' eligibility verifications and determinations and enro llment transactions (45 CFR § 155.1210(b)(4)).

             Effect:

             AHCT's internal controls were no t effective in ensuring it maintains all eligibility data to sufficiently demonstrate
             that applicants are e ligible for enrollment in QHPs a nd, when applicable, eligible for insurance affordab ility
             programs.

             OIG Recommendation:

             Ensure tha t the excha nge corrected a system defect related to maintaining eligibil ity verification data for minimum
             essential coverage t hrough non-employer-sponsored insura nce.


             AHCT Response:

             AHCT concurs with the OIG recommendation and a system e nhancement was put into production on Aprilll,
             2014. Although earlier testing resulted in exceptions, as stated above, AHCT demonstrated that all verification
             data was successfully received . This was only an issue because of a lack of maintaining the da ta for these few
             samples after e ligibility was determined. In ternal quality review proced ures are be ing developed to allow AHCT
             the ability to provide more assurance t hat data is being ma inta ined per federal regulations. These quality review
             procedu res include pe riodic sampling, add itional system testing, and enhanced traini ng sessions for our data
             analysts.

             OIG Recommendation:

             Re-determ ine, if necessary, t he eligibility of sample applicants t hat OIG determ ined were not performed accord ing

                                                                         5




Selected .Marketplaces' Internal Controls Under the Affordable Care Act (A-09-14-01000)                                                 74
             AHa Response to Report# A-09-14-01000 Recommendations



             to Federal requirements.

             AHCT Response:

             AHCT concurs with the OIG recommendation and completed necessary redeterminations.




             Other issues outside the OIG audit scope:

             Other Issue 1: Residency Was Verified by the Marketplaces Only by Accepting Applicants' Attestation of
             Residency

             Condition:

             The ma rketplaces accepted the applicants' attestation of residency withou t furthe r verification in accordance with
             Federal requireme nts.

             Criteria:

             A ma rketplace must verify an applicant's attestation regarding residency by accepting t he attestation without
             further ve rification o r by examining da ta sou rces that are available to the marketplace and that have been
             approved by HHS for this purpose. However, if information t hat the applicant p rovides regarding residency is not
             reasona bly compatible with o ther information provid ed by the applicant or in the records of the marketplace, the
             marketplace must examine informatio n in data sources that are available to t he marketplace and that have been
             approved by HHS for this purpose. If the information in such data sources is not reasonably compatible with the
             informatio n provided by the a p plicant, the marketplace must follow proced u res for resolution of inconsistencies
             (45 CFR § 155.315(d)).

             AHCT Response:

             As of this da te, HHS has not id entified an approved source for the exchange marketplaces to ve rify residency. AHCT
             is committed to addressing this issue and is moving forward with enhancing our verification process by including
             t he Connecticut Department of labor as a n additional data source fo r the next open e nrollment pe riod.

             However, AHCT does confirm that an applica nt's attested add ress is in fact a Connecticut address. An a pplica nt
             who lists an address tha t is not a verified Connecticut address is no t allowed to proceed further with the
             e nrollment process.

             Other lssue 2: Family Size Was Verified by the Marketplaces Only by Accepting Applica nts' Attestation of Family
             Size


             Condition:

             According to marketplace officials, t he marketplaces received IRS info rmation on applicants.' family sizes during the
             e ligibil ity determination process. Although the marketplaces did not make IRS fam ily-size data available to
             a pplicants o r require t hem to a ttest tha t these data we re accurate, the marketplaces accepted the applicants'
             attestation of family size in accordance with Federal requ irement s.

             Criteria:

                                                                        6




Selected .Marketplaces' Internal Controls Under the Affordable Care Act (A-09-14-01000)                                                75
             AHCT Response to Report# A-09-14-01000 Recommendations



             A marketplace may verify an applicant's family size by accepting an applicant's attestat ion of a tax filer's family size
             for determi ning advance premium tax credits and cost-sharing reductions (45 CFR § 155.320(c)(3)(i)(A)) . However,
             if the marketplace finds that an applicant's attestation of a tax filer's family size is not reasonably compatible with
             o ther information provided by the applicant o r in the records of the marketplace; the marketplace must examine
             income data obtained thro ugh o ther e lectronic data sources to verify the attestation. If the information in such
             data sources is not reasonably compatible with the applicant's attestation, the marketplace must follow
             procedures for resolution of inconsistencies (45 CFR § 155.320(c)(3)(i)(D)).

             AHCT Response:

             IRS data for dependent determination may not be accurate as of the time of enrollment with respect to
             determining an applicant's household size. An applicant is required to submit identifying information, such as
             social security number or legally present identifying numbe r, during the course of enrollment. Such information is
             validated through the Federal data services hub. When such applicant's attested informa tion cannot be verified,
             AHCT follows t he procedures for resolutio n of inconsistencies as stat ed in 45 CFR § 155.320(c)(3)(i)(D). If an
             applicant fails to correct such inconsistencies within the 90 day period, such persons not ide ntified will be dis­
             e nrolled from coverage.

             Other Issue 3: Insurance Enrollment Information Not Pro vided to Insurance Carriers



             Condition:

             Of the 34,095 records that AHCT transmitted to health insura nce carriers, 139 records for applicants who were
             determined eligible and select ed a QHP were not forwarded to the appropriate health insura nce carrier timely.

             Crite ria :

             Marketplaces must send eligibility and e nrollment information to QHP issue rs and HHS "promptly and without
             undue delay" (45 CFR § 155.400(b)(1)).


             Effect:

             Eligible applicants receive coverage in a QHP aft er health insurance exchanges forwa rd applicants' data to health
             insurance carriers. Delays in submitting applicants' data oould lead to delays in insurance coverage o r e ligible
             applicant's not receiving coverage.

             AHCT Response:


             AHCT identified some production issues early in our operation which resulted in the need to correct data prior to
             transferring t o the carriers. Filte rs were put in place to catch transactions prior to the tra nsactio n being sent
             incorrect ly to the carriers so t hat AHCT staff could correct the information. The applicants impacted were then
             personally contacted by AHCT via an outbound call campaign (up to 3 subsequent calls per household). The
             AHCT call center representa tives were able to rea ch 121 of those individuals with t he application issue, and
             those successful enrollments were transmitted to the carriers via an 834 file at a later date. The remaining 18
             applicants we re no t able to be contacted by AHCT aft er 3 repeated attempts, and were not enrolled by AHCT. As
             a result, 834 files containing the 18 applicants appropriately have not been sent to t he carriers.

                                                                         7




Selected .Marketplaces' Internal Controls Under the Affordable Care Act (A-09-14-01000)                                                  76
             AHCT Response to Report# A-09-14-01000 Recommendations




             Other Issue 4: APTC Amount Exceeds Total Plan Prem ium



             Condition:


             Of the 3 4,095 records that AHCT t ransmitted to health insurance car riers, 8 records included applicants whose
             mont hly APTC amounts were greater than their monthly insura nce plan premiums.


             Criteria :


             26 CFR § 1.368-3 -Computing t he premium assistance credit amount
             (d) Premium assistance amount. The premium assistance amount for a coverage month is t he lesse r of­
             (1) The premiums for the month for one or more qualified health plans in which a taxpayer or a member of the
             taxpayer's fam ily enrolls; or
             (2) The excess of the adjusted monthly premium for the applicable benchmark pla n over V12 of the product of a
             taxpayer's household income and the applicable percentage for t he taxable year.


             Effect:


             Beca use t he Federal government pays health insurance prem ium subsidies to health insurance carriers based o n
             the APTC information supplied by State health insurance exchanges, APTC calculations in excess of allowable
             amounts could r esu lt in the Federal government overpaying premium subsidies.


             AHCT Response:


             Originally, 4 applicants were identified on December 9, 2013 with this speci fic issue. As a follow-up, a total of 8
             applicants were identified with this specific issue, and all eight applications have been corrected. As a r esult of
             the problem, a syste m correction was immediately released that ensures that the APTC selected would always
             be less than the total premium on all applications going forward.


             The 4 additional impa cted records were identified by AHCT after a thorough review of the EOI report
             spreadsheet. The correction was made to the syst em, and the in formation was then shared with the applicable
             carrier to update their records. AHCT has imple mented periodic reviews of sent transactions to ensure that the
             APTCs provided to enrollees are not greater than the premiums. Further, AHCT has intr oduced scenarios withi n
             the regression test suite to confirm that newly implemented system changes do not reintroduce this issue.




                                                                        8




Selected .Marketplaces' Internal Controls Under the Affordable Care Act (A-09-14-01000)                                             77
